<html>
<title> - THE SPREAD OF ISIS AND TRANSNATIONAL TERRORISM</title>
<body><pre>[Senate Hearing 114-776]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 114-776

                         THE SPREAD OF ISIS AND 
                        TRANSNATIONAL TERRORISM

=======================================================================

                                HEARING
                               
                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 12, 2016

                               __________

       Printed for the use of the Committee on Foreign Relations
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       
       
                    Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
                                 __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-358 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6700170827041214130f020b174904080a49">[email&#160;protected]</a>                         
                         

                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        


                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1


Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     2


Wood, Graeme, Edward R. Murrow Press Fellow, Council on Foreign 
  Relations, Washington, DC......................................     5

    Prepared statement...........................................     6


Levitt, Dr. Matthew, director, Stein Program on Counterterrorism 
  and Intelligence, The Washington Institute for Near East 
  Policy, Washington, DC.........................................     8

    Prepared statement...........................................    10


Olsen, Hon. Matthew G., former director, National 
  Counterterrorism Center, Washington, DC........................    17

    Prepared statement...........................................    19


                             (iii)        

 
                        THE SPREAD OF ISIS AND 
                        TRANSNATIONAL TERRORISM

                              ----------                              


                        TUESDAY, APRIL 12, 2016

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:00 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Rubio, Johnson, 
Flake, Gardner, Barrasso, Cardin, Menendez, Shaheen, Udall, 
Murphy, Kaine, and Markey.

             OPENING STATEMENT OF HON. BOB CORKER,
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    We have some important business to do, but I think our most 
important business is to wish Bertie a happy 85th birthday 
today. So thank you so much for what you do here. [Applause.]
    The Chairman. You know, the State Department is an 
institution, no doubt, but Bertie is more of an institution. So 
we thank you very much for what you do here.
    I also want to thank our witnesses for being here to 
testify. We have got a good mix of experts and practitioners.
    Today we look forward to hearing your thoughts on the 
spread of ISIS and transnational terrorism. Tragically, last 
year saw attacks that were supported or inspired by ISIS in 
Paris, Turkey, Beirut, Egypt, San Bernardino, and Brussels and 
even in my hometown of Chattanooga.
    Simultaneously dozens of groups around the world have 
claimed some affiliation with ISIS. I hope our witnesses can 
comment on how many of these organizations have real ties to 
ISIS headquarters in Raqqa and how many are simply attracted to 
the brand.
    I also think this hearing will be a good opportunity to 
explore the goals of ISIS as an organization. Are they more 
focused on establishing a physical caliphate, or are their 
goals shifting to coordinating attacks abroad, a shift that few 
people predicted in the beginning? Do they have long-term goals 
and concrete ideology, or are they more opportunistic?
    I know we will all have questions specific to recent 
attacks in Europe, and I hope our witnesses can shed some light 
on the unique threat facing Europe and what steps we can take 
to encourage intelligence sharing and better border controls.
    It seems that our partners often depend upon American 
intelligence but argue against its collection because of 
privacy concerns. Obviously, there is a rub there.
    I would also appreciate your views on the use of end-to-end 
encryption in some of these attacks and how much of a threat 
that technology poses.
    Finally, it appears that ISIS has created a new model of 
terrorism, one less structured and more violent than Al Qaeda. 
I hope our witnesses can comment on what this new model means 
for the future. Can we expect other groups to imitate the ISIS 
model, and will ISIS continue to spread? And more importantly, 
what steps can we take to ensure that this model is 
unsuccessful?
    With that, again I want to thank you. We have some 
outstanding witnesses today, and we appreciate you being here.
    With that, I will turn to our distinguished ranking member 
and my friend, Ben Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Chairman Corker, thank you for 
calling this hearing, first and foremost, to wish Bertie a 
happy birthday. I think it was well timed for that purpose. You 
know, members of this committee come and go, but Bertie stays. 
And we want to know his secret because each of us have aged a 
great deal on this committee, more than the number of years we 
have been on the committee, where he seems to get younger. So, 
Bertie, thank you very much for your service to the Senate 
Foreign Relations Committee.
    And, Mr. Chairman, I thank you for convening this hearing. 
This is an opportunity for this committee to really step back 
and look at trends in terrorism broadly. It is my hope today 
that our witnesses can help us understand what lessons we have 
learned from our country's long history in countering terrorism 
and how we can apply these lessons to meet the new challenges 
posed by ISIL.
    While ISIL is the single greatest terrorist threat to our 
homeland security and the security of our allies worldwide, let 
us remember that terrorism as a global phenomenon is not new. 
It is a tactic tied to no specific religion, nation, or 
ethnicity. The goals of its perpetrators are varied. Decades 
ago, European Marxist groups in Germany and the Red Brigade in 
Italy engaged in terrorist activities against police, judges, 
and jurors. In Sri Lanka, the Tamil Tigers turned to suicide 
bombing in their insurgency against the government. I vividly 
remember how, in order to despicably draw attention to their 
cause, the Palestinian terrorist group, Black September, 
murdered 11 Israeli Olympic team members in 1972. In the 21st 
century, Al Qaeda and the attacks of 9/11 ushered in a new era 
of transnational jihad terrorism aimed at drawing the United 
States into a generational conflict. Just like ISIL today, Al 
Qaeda directed, financed, and inspired attacks in Madrid in 
2004, London in 2005, and among many other bombings.
    But Al Qaeda, though it is scattered across the Middle 
East, has not broken us. We have adjusted, adapted, and are 
winning that fight. As we turn to meet the challenges of new 
threats such as ISIL, I believe there are vulnerable lessons 
that can be learned.
    For example, I believe that by leaving in place the 2001 
AUMF, Congress could be authorizing a state of perpetual war. I 
know, Mr. Chairman, we have tried to deal with how we deal with 
an AUMF to meet the current needs, but the 2001 left without 
challenge--I have introduced legislation. I put a sunset on 
it--to me removes the Congress from being engaged when we 
should be authorizing specific force.
    Moreover, I am concerned that drone strikes, regardless of 
whether the next President is a Democrat or Republican--I want 
to see transparent, strong oversight of the drone program by 
Congress. I applaud this administration's recent announcement 
that it intends to release information about casualties from 
drone strikes outside of war zones. But still more work needs 
to be done.
    Another lesson we have learned from our experience against 
Al Qaeda is to remain resolute and clear-eyed. In recent months 
and weeks, tragic attacks in Brussels and Pakistan have once 
again thrust the issue of terrorism to the headlines. And our 
election year politics have only magnified the problem. But if 
we are once again going to defeat our enemies, in this case 
ISIL, we must remain as vigilant, resist complacency, but not 
overreact to terrorism. Factually speaking, when the number of 
terrorist incidents worldwide has jumped alarmingly in recent 
years overall, most terrorist attacks occur primarily in just 
five countries: Iraq, Nigeria, Afghanistan, Pakistan, and 
Syria. Fear is a powerful weapon and we cannot let the tragic 
December 2015 attacks in San Bernardino scare us into walling 
ourselves off from the rest of the world or from each other.
    Today we will hear from some of our witnesses about how 
ISIL is a new manifestation of the global terrorist threat. In 
my mind, there is no question that ISIL is a barbaric terrorist 
organization. It is an extremist threat to the United States, 
our interests, and our allies in the region. Its ambitions to 
create a state may be new. Its online tactics to recruit and 
indoctrinate may be aggressive, and its organization may be 
disciplined. But our resolve is unwavering, and our strategy to 
contain, diminish, and eliminate ISIL around the globe is 
working. Yet, much more needs to be done.
    I strongly support President Obama's goal of degrading and 
destroying ISIL, a strategy that seems to be succeeding in Iraq 
and Syria, though there is still a long way to go. Our recent 
successes include ISIL's loss of 40 percent of its populated 
territory it used to control in Iraq, the elimination of high-
value ISIL operatives by coalition airstrikes, including ISIL's 
finance minister and minister of war, and the training of 
nearly 20,000 Iraqi security forces, many of which have already 
participated in the fight such as the successful liberation of 
Ramadi. These military gains are critical, but I also urge our 
officials to prioritize our diplomatic power as much as our 
military might. For only if we work to foster politically 
inclusive governments in the Middle East, that the threat of 
all citizens with dignity and respect under the law, we will be 
able to counteract the societal conditions that assist 
radicalization and extremism.
    Mr. Chairman, you and I met with the foreign minister from 
Saudi Arabia. I was in Saudi Arabia 2 weeks ago and asked the 
direct question. Could you support a leader in Syria that was 
not Sunni? The answer was yes. We want it to be nonsectarian. 
They want an all-inclusive government because they have 
recognized an all-inclusive government in Syria brings 
stability to Syria, which helps the stability concerns in the 
entire region.
    So what we are looking for is diplomatically to be able to 
have governments in that region that represent all the 
communities and have the confidence of all the communities. And 
if we do not achieve that, there is a gap that feeds into the 
recruitment by extremist groups.
    And while ISIL has expanded across the Middle East and 
beyond, its core remains in Syria and Iraq, and only by 
resolving the political conflicts there can we hope to remove 
ISIL from the picture permanently.
    This is not less true than other places. ISIL's barbarity 
has found fertile ground. Because of what ISIL does, how it 
breeds and expands, it is exploiting political vacuums. It 
fills them with its hatred, its lies, and misdirection. Its 
warped view of Islam and its promises of meting vengeance, 
profit, power and deliverance to the naive and the criminal. 
This is true in Syria and Iraq and Libya and Yemen, and its 
recruitment of foreign supporters often see themselves in a 
political vacuum of exclusion, discrimination, and alienation 
within their own societies.
    We got to do better. In Syria, we must continue to work 
with the international community and Syrians towards a 
negotiated settlement that is sustainable, inclusive, and 
reflective of the legitimate desires of all Syrians. In Iraq, 
we must encourage all leaders across ethnic and sectarian 
divides to commit to governing in an inclusive, representative, 
and non-corrupt manner. This is the only way to ensure long-
term stability and begin the critical work of reconstructing 
and rebuilding Iraq.
    Mr. Chairman, let me tell you. I applaud your willingness 
to step back and have this committee look at the big picture. I 
look forward to our witnesses' testimony. I have full 
confidence that no matter what ISIL throws at us at home or 
abroad, our democracy, our values, and our humanity will 
prevail.
    The Chairman. Thank you, Senator Cardin.
    We will now turn to our witnesses. Our first witness is Mr. 
Graeme Wood, an Edward R. Murrow Press Fellow at the Council on 
Foreign Relations. Thank you. Our second witness is Dr. Matthew 
Levitt, Director of the Stein Program on Counterterrorism and 
Intelligence at The Washington Institute. And our third witness 
today is the Honorable Matthew Olsen, former Director of the 
National Counterterrorism Center.
    I think all of you understand we will enter your written 
testimony into the record without objection. If you would 
summarize in about 5 minutes, we look forward to questions. 
With that, let's start in the order that I introduced you. 
Thanks again for being here.

   STATEMENT OF GRAEME WOOD, EDWARD R. MURROW PRESS FELLOW, 
          COUNCIL ON FOREIGN RELATIONS, WASHINGTON, DC

    Mr. Wood. Thank you, Mr. Chairman.
    The Islamic State has inspired immense fear among Americans 
and our allies. My main purpose is to discuss the nature of the 
threat that it poses and to differentiate the reasonable from 
the unreasonable fear.
    As a journalist, what I do is I speak to people. I read the 
propaganda of ISIS whenever I can, and I try to find people 
who, in some way or another, reflect the views of the group 
and, if possible, find people who have direct connections to 
it, but who have been kind of left behind, who are still in 
places where I can speak to them freely and speak to them 
directly.
    They have many things in common. Many beliefs that I think 
are familiar to the committee about the righteousness of the 
caliphate led by Abu Bakr al Baghdadi, that he is the rightful 
political successor to the Prophet Muhammad, et cetera.
    So I will begin by talking about what I consider the 
reasonable fears about what ISIS/ISIL represents.
    Supporters of ISIL have given me little reason to believe 
that their most brutal and intolerant statements are mere 
bravado or exaggeration for effect. It is true that they have 
welcomed my questions and treated me very gently in person in a 
very friendly way in many cases. And they actually seem to 
appreciate the comforts of the Western countries and tolerant 
societies in which they live.
    Their convictions about ISIL and its righteousness, 
however, are real. When they talk about genocide against Shia 
or about reinstituting slavery and other practices that are 
inconsistent with modern notions of human rights, they do so 
without apology and at times with real pleasure and gusto. 
Their opinions are thoroughly premeditated, and they are based 
in an interpretation of scripture and Islamic history, as well 
as practical considerations about how to implement that 
interpretation. I think it is folly, first of all, to discount 
their sincerity or to interpret their beliefs as ill-
considered, as foolish, or to understand their fanaticism is 
anything but sincere and real and irreducible to other factors.
    Second, the support that I have seen in speaking to them 
has been broad, as well as deep. The demographics of the 
supports skew toward the young and male, but there is a great 
diversity in national origin, age, education, class, and they 
are certainly not summarizable as the kind of underworld of 
Western European gangsters that we have seen in some of the 
composites that have been portrayed in the press. Those types 
are definitely well represented, but I have also come across 
doctors, engineers, autodidacts that in talking to them, you 
immediately recognize educated people who have gone to their 
chosen terrorist group with careful consideration. There are 
also men who are well past peak battlefield age and women of 
all ages in non-military roles.
    Finally, the numbers are very large, tens of thousands of 
people versus probably hundreds in the core Al Qaeda group that 
we came to know in the mid-2000s.
    So to speak a bit to what I think are some of the 
unreasonable fears or misunderstandings about the group.
    First, although they speak with great grandeur in their 
ideological claims, they talk about genocide and so forth, and 
I think comparisons to Nazi ideology or other types of 
ideological threats that the United States and the world has 
faced in the past are apt. They are not apt in terms of the 
capacities of the group. ISIS still remains something that is a 
somewhat localizable phenomenon.
    On the question of whether they are prioritizing the 
building of a caliphate or attacks on Western targets, I 
continue to believe that they care deeply about the 
preservation of their core territories and that their attacks 
on Western targets, especially spectacular attacks of the 
September 11th style, is a secondary concern for them. Their 
early message that supporters from the West should go to ISIS 
territory continues to be echoed in their propaganda today. 
They have, instead, essentially taken the old Al Qaeda model of 
conspiracy and have attached that to the mass movement of ISIS; 
that is, ISIS has tried to mobilize tens of thousands of people 
to migrate, but they also have a conspiratorial element that is 
Al Qaeda style and that is attempting to have attacks on the 
West.
    We should understand that the core differentiating aspect 
of ISIS is the mass movement, is the fact that it has been able 
to mobilize a huge movement of people and tens of thousands of 
people. That is not something that they have, thus far, been 
able to, with great effect, direct toward the West in the form 
of terrorist attacks. Those attacks will happen, but they will 
not take advantage of that core strength.
    Thank you.
    [Mr. Wood's prepared statement follows:]


       Prepared Statement of Graeme Wood, Edward R. Murrow Press 
        Fellow, Council on Foreign Relations, Washington, DC \1\
---------------------------------------------------------------------------

    \1\ The Council on Foreign Relations takes no institutional 
positions on policy issues and has no affiliation with the U.S. 
government. All statements of fact and expressions of opinion contained 
herin are the sole responsibility of the author.
---------------------------------------------------------------------------
    The Islamic State has inspired immense fear among Americans and our 
allies. My main purpose today is to discuss the nature of the threat it 
poses, and to differentiate reasonable from unreasonable fear.
    As a journalist, I have access to no information other than what is 
publicly available and what I can discover in my own investigation and 
conversations. Over the past two years, these conversations have 
included a small number of individuals broadly supportive of the 
Islamic State. None is currently in Islamic State territory, and their 
excuses for not having traveled there to fight range from the plausible 
(revoked passports, physical debility) to the unconvincing or lazy 
(``God has not given me the time''). They all know people who have 
immigrated, and in most cases, they agree openly with the Islamic 
State's theology and politics. They recognize Abu Bakr al Baghdadi as 
the political successor to the Prophet Muhammad, and they adhere to a 
harsh, intolerant form of Islam practiced by a small minority of 
Muslims worldwide. My opinions derive also from close reading of the 
group's official propaganda; its leaders' statements; the open-source 
chatter of those who support ISIL; and conversations with others who 
watch the group closely, including Muslim and non-Muslim opponents and 
analysts.
    I will begin with the reasonable fear. Supporters of ISIL have 
given me little reason to believe that their most brutal and intolerant 
statements are mere bravado or exaggeration for effect. It is true that 
they have welcomed my questions and treated me gently in person. In 
most cases, they seem to appreciate the comforts of the developed, 
peaceful countries where they live. But their conviction is real. When 
they talk about putting the Shia to the sword, or reinstituting slavery 
and other practices inconsistent with modern notions of human rights, 
they do so without apology, and at times with evident gusto. Their 
opinions are thoroughly premeditated, and they are based in an 
interpretation of scripture and Islamic history, as well as practical 
considerations. It would be folly to discount their sincerity or to 
interpret their beliefs as idle, ill-considered, or foolish. The 
fanaticism is real, and it does not reduce to other factors.
    Second, the support for ISIL is broad as well as deep. The 
demographics of supporters skew toward the young and male, as in all 
wars. But the diversity of national origin, age, education, and class 
is staggering--and it is not reflected in the cartoon version of the 
ISIL recruit that one gets from some journalistic accounts. That media 
composite has, in recent weeks, focused on the Belgian and French 
criminal-underworld gangsters who appear to have perpetrated the 
attacks in Brussels and Paris. I have little doubt that these types are 
well-represented. But also present in the fraternity of ISIL fighters 
are doctors, engineers, and a panoply of autodidacts in whose writing 
and speech any educated person can recognize kindred spirits. The group 
includes men well past peak battlefield age, as well as women of all 
ages in non-military roles.
    Third, the numbers are large--far greater than any Al Qaida's 
during its heyday. These numbers deserve a moment's contemplation. 
Whereas the forces under the command of Osama Bin Laden for the ``core 
Al Qaida'' attacks on Western targets likely numbered in the hundreds 
at their peak, tens of thousands of ISIL fighters have already 
immigrated to Syria and Iraq. The counterterrorism strategies that have 
kept the United States safe from Al Qaida have treated the group as a 
conspiracy. But ISIL is a mass movement, and it will be impossible to 
shut down plots against America or its allies entirely, using the same 
tools. Attacks will occur, and they will terrify Americans. What will 
increasingly define bravery and integrity among politicians will be 
their ability to manage the expectations of their constituents rather 
than to exploit their fears, and to react to these attacks with empathy 
and rationality simultaneously.
    I come, then, to the topic of unreasonable fear. First, we should 
note the mismatch between the soaring ideological claims of ISIL and 
its practical capability. Its mode of expansion in Syria and Iraq, 
through fast movement of light-armored vehicles in familiar terrain, 
does not readily transfer into most other places, and would certainly 
fail in Turkey or heavily Kurdish or Shiite areas of Iraq. It requires 
desperate, beleaguered local populations, with some base willingness to 
contemplate a harsh revivalist Islamism as an alternative to the status 
quo. The ideology of ISIL echoes Nazism in its genocidal ambitions and 
tone, but the it is not matched by an equally powerful war machine. The 
ISIL military is not one of the world's most formidable, and we should 
not mistake the grandeur of its language for vast operational capacity.
    Second, the Islamic State still prioritizes building a caliphate 
and protecting its diminishing core territories--not in attacking 
Western targets in spectacular ways, a la September 11. I make myself 
hostage to fortune by advancing this claim. But it remains correct, 
Brussels and Paris notwithstanding.


   ISIL's propaganda has not deviated from its early message: that the 
        primary obligation of supporters overseas is to immigrate, and 
        only if they fail to do so should they undertake solo terrorist 
        efforts of their own. The propaganda does not leave doubt; it 
        is difficult to consume much of it without reaching the 
        conclusion that attacks on America are not the primary job of 
        American ISIL supporters still at home. They should buy a plane 
        ticket instead.

   Spectacular attacks on the West are instead the job of dedicated 
        cells, directed from Syria and staffed at least in part by 
        fighters who have returned to their home countries for that 
        purpose. These cells are a conspiracy within the mass movement, 
        a little touch of Al Qaida within the Islamic State. 
        Journalists who have reported on the size of this conspiracy 
        have estimated its European members in the dozens, some of whom 
        are already captured or dead. These estimates are conservative, 
        and I would not be surprised at total mobilized figures in 
        triple digits.

   ISIL brags relentlessly in its propaganda about its control of 
        territory. Its foreign attacks are calculated for maximum 
        effect with minimum blowblack. I suspect that central planning 
        and control allows ISIL to titrate the strength of these 
        attacks to avoid a response that would involve loss of core 
        territory. The attacks are nevertheless spectacular enough to 
        allow ISIL to dominate news cycles and remain first among 
        global jihadi equals. A spectacular mass attack on the US 
        would, I suspect, overshoot the mark.


    None of the above points implies that ISIL will not attack the US 
and Europe; on the contrary, I assume they will. And the group's 
changing fortunes could easily alter its calculations and compel it to 
invest heavily in foreign operations, at the expense of local ones. 
However, when they do so, they will not mobilize their differentiating 
strength, which is their enormous numbers. Instead, they will be 
revisiting an Al Qaida strategy that we have begun to learn to counter.
    Finally, although the conversion into a mass movement makes ISIL 
less fragile and harder to counter, it carries important dangers for 
ISIL as well. Mass movements resist central control, and they are 
vulnerable to changes of style, culture, and generational preference. 
ISIL has thrust itself into the consciousness of many, many Muslims, 
and has thereby suggested itself as an outlet for existential, 
political, and religious desires. It has no way of ensuring that next 
year's seekers will direct their energies toward the same ends. A 
sophisticated policy response to ISIL's rise will take into account not 
only military and political dimensions, but also countercultural, 
religious, and existential ones. Unfortunately, since government is 
typically at its most hapless when trying to deal with these types of 
issues, much work remains to be done--much of it not by government but 
by civil society.


    The Chairman. Dr. Levitt?

  STATEMENT OF DR. MATTHEW LEVITT, DIRECTOR, STEIN PROGRAM ON 
COUNTERTERRORISM AND INTELLIGENCE, THE WASHINGTON INSTITUTE FOR 
               NEAR EAST POLICY, WASHINGTON, D.C.

    Dr. Levitt. Chairman Corker, Ranking Member Cardin, 
distinguished members of the committee, it is an honor and a 
privilege to appear before you today.
    The committee has held numerous hearings on the so-called 
Islamic State and the devastating impact of its barbarism in 
the Middle East. But coming on the heels of the Brussels 
bombings and the group's demonstrated intent and capability to 
carry out terrorist attacks in the West, I would like to 
address the spread of its transnational terrorism today.
    Allow me to paint a picture. The office of the mayor of 
Molenbeek, the municipality in Brussels, sits alongside a 
picturesque, typically European cobblestone courtyard. Across 
the square, within plain view of the municipal government 
building, sits the home of Salah Abdeslam, the Islamic State 
terrorist who was finally captured March 18th after evading 
authorities since the November Paris attacks. Nothing but air 
separates the two buildings, but they are a world apart. This 
is the bifurcated Brussels that I saw coincidentally when I was 
in Belgium a few days before the terrorist attacks that killed 
31 and wounded hundreds.
    And while your average citizen in Europe and in the United 
States might feel extra anxiety and dismay with these attacks 
and the sense of a metastasized danger, Western 
counterterrorism officials are not entitled to feel that kind 
of surprise because for anybody who was playing close enough 
attention, the Islamic State's expanded capabilities and intent 
have been evident for well over a year. We now know that the 
Islamic State was already plotting attacks in the West as early 
as late 2013.
    But the real aha moment came not last month in Brussels but 
in Verviers in the eastern part of the country in January 2015, 
just 2 weeks after the Paris attacks on Charlie Hebdo and the 
kosher supermarket. It was in that attack where it became clear 
that the Islamic State had what Europol has described as an 
external operations command and that it was, quote, going 
global. Two things stood out from that plot that was thwarted, 
largely thanks to a very successful sharing of intelligence.
    One, that this was not your inspired lone offender, which 
was the type of plot that we were most concerned about on the 
part of the Islamic State until then, but that this was a 
foreign-directed plot, much more carefully planned, with much 
more capability.
    And the second was the cross-jurisdictional nature of the 
threat and simultaneously the awareness that as the EU 
counterterrorism coordinator has put in his last report, 
information sharing within the EU does not reflect the threat. 
The fact that this threat was cross-jurisdictional, being 
overseen by a person on a cell phone in Athens with operators 
in Belgium and investigations going on in the Netherlands and 
France and in Germany meant that sharing information across 
these jurisdictional lines is going to be much, much more 
important moving forward.
    The fact is that what is happening in Europe is different 
than what is happening in the Middle East in terms of the way 
people are being radicalized. And what we are seeing as some 
counter-radicalization officials within the municipality of 
Molenbeek put it to me--and I have to say the silver lining is 
the people I met who were working on these issues there were 
tremendous, really fantastic. The way they put it to me is you 
have here people who were going from zero to hero. You have 
people who are looking for purpose, and they are being provided 
that in the Islamic State. Recruiters offer a sense of family 
to people from broken homes, of belonging to people who feel 
disenfranchised from society, of empowerment to people who feel 
discriminated against, of higher calling and purpose to people 
who feel adrift. The recruiters pitch small groups of friends 
together. You do not really belong here. You are not wanted 
here. You cannot live here. You cannot get a job here. And only 
then does the religious component come in. Clearly you should 
not be living amongst the infidels. You mix in this gangster 
culture and you have a combustible combination in these ghetto-
ized neighborhoods like Molenbeek where today's criminals are 
tomorrow's terrorists and the radicalization process literally 
is in hyper drive.
    That, in part, is because of things that have happened in 
the region. We need to remember that the conflict in Syria was 
originally a civil war, and many Europeans who first went as 
foreign terrorist fighters to that conflict, before the Islamic 
State existed, were going not in a sense of offensive jihad, 
but a defensive calling because no one else was doing it to go 
defend women and children and fellow Sunnis. That most of those 
people ended up, if they stayed, fighting with more radical 
groups, Ahrar al-Sham, Jabhat al-Nusra, because they are the 
ones who had the money and the weapons, means many of them did 
get more radicalized, but that is not why they went in the 
first place.
    The other thing that changed the nature of radicalization 
and sped it up significantly is the founding of the Islamic 
State. We focus on its genocide and barbarism, obviously, but 
for people who are looking for this purpose, to be told come in 
and get in at the ground level to reestablish the caliphate, 
just like the original followers of the Prophet Muhammad, for 
someone who is adrift this is an empowering message.
    The fact of the matter is that as we move forward looking 
at what we need to do in Europe, in particular, and the West 
more broadly, this is something that is going to have to 
involve law enforcement agents and intelligence officers and 
greater intelligence sharing and moving information up to the 
SIS, Schengen Information Sharing system, borders. Sure.
    But the more important activists are going to be the social 
workers and the teachers and the people in these communities. 
In Molenbeek, for 15 months now, they have been putting this in 
place to their credit, but the number of countering violent 
extremism police officers they have, plused up after the 
November attacks, for a community of 100,000 people is eight. 
And the prevention officers who are working in that capacity in 
a civilian capacity, who were brilliant, three. So there is 
much more we need to do as we move forward.
    And I thank you for the opportunity to testify this 
morning.
    [Dr. Levitt's prepared statement follows:]


  Prepared Statement of Dr. Matthew Levitt, Fromer-Wexler Fellow and 
   Director, Stein Program on Counterterrorism and Intelligence, The 
             Washington Institute for Near East Policy \1\
---------------------------------------------------------------------------

    \1\ Portions of this testimony first appeared as ``The Islamic 
State's Lone Wolf Era is Over,'' Foreign Policy, March 24, 2016, http:/
/foreignpolicy.com/2016/03/24/the-islamic-states-lone-wolf-era-is-over/ 
and as ``My Journey through Brussels' Terrorist Safe Haven,'' Politico, 
March 27, 2016, http://www.politico.com/magazine/story/2016/03/
brussels-attacks-terrorist-safe-haven-213768. My thanks to both 
publications for allowing me to work through these ideas on their 
pages, and for providing formal permission allowing me to use portions 
of that material here.
---------------------------------------------------------------------------
    Chairman Corker, Ranking Member Cardin, distinguished members of 
the committee, it is an honor and privilege to appear before you today. 
This committee has held numerous hearings on the so-called Islamic 
State and the devastating impact of its barbarism on the Middle East. 
But coming on the heels of the Brussels bombings, and the group's 
demonstrated intent and capability to carry out terrorist attacks in 
the West, it is the spread of this transnational terrorism that I would 
like to address today.
    Allow me to paint a picture: The office of the mayor of the 
Molenbeek municipality in Brussels sits alongside a picturesque, 
typically European cobblestone square. Across the square, within plain 
view of the municipal government, sits the family home of Salah 
Abdeslam, the Islamic State terrorist who was finally captured on March 
18th after evading authorities since the November Paris attacks. 
Nothing separates the two buildings, but they are a world apart.
    This is the bifurcated Brussels I saw when, coincidentally, I was 
in Belgium a few days before the terrorist attacks that killed 31 
people and wounded hundreds. I was there to meet with senior 
counterterrorism, intelligence and law enforcement officials, as well 
as with local officials in the troubled municipality of Molenbeek, the 
subsection of Brussels where Abdeslam grew up and which even 
Molenbeek's mayor, Francois Schepmans, describes as ``a breeding ground 
for violence.'' \2\
---------------------------------------------------------------------------
    \2\ Robert-Jan Bartunek and Alastair Macdonald, ``Guns, God and 
grievances--Belgium's Islamist 'airbase','' Reuters, November 16, 2015, 
http://www.reuters.com/article/us-france-shooting-belgium-guns-insight-
idUSKCN0T504J20151116
---------------------------------------------------------------------------
Expansion of the Islamic State Terrorist Threat to the West
    The Brussels bombings have made it plain that the scale of the 
threat posed by the Islamic State to the West is far larger than most 
Westerners had previously thought. That threat is no longer limited to 
the radicalization of the 5,000-6,000 European citizens who left the 
comfort and safety of their homes to fight alongside the Islamic State 
in Syria, Iraq and, more recently, Libya.\3\ Nor has it only expanded 
to include so-called ``lone-wolf'' plots--self-organized attacks 
carried out by homegrown radicals. The Brussels bombings have made it 
painfully clear that the Islamic State is determined to plan and direct 
attacks in the West that are far more sophisticated and lethal than 
such small-scale mayhem.
---------------------------------------------------------------------------
    \3\ ``State of play on implementation of the statement of the 
Members of the European Council of 12 February 2015, the JHA Council 
Conclusions of 20 November 2015, and the Conclusions of the European 
Council of 18 December 2015,'' EU Counter-Terrorism Coordinator, 
Council of the European Union, March 1, 2016, http://
www.statewatch.org/news/2016/mar/eu-council-c-t-coordinator-report-
6450-16.pdf
---------------------------------------------------------------------------
    It would be understandable if the public expressed anxiety and 
dismay about this metastasized danger. But the West's counterterrorism 
officials are not entitled to feel surprise. For anyone paying close 
enough attention, the Islamic State's expanded capabilities have been 
evident for well over a year.
    After the U.S.-led coalition began launching airstrikes against 
Islamic State targets in August 2014, the group's spokesman, Abu 
Muhammad al-Adnani, responded with a call for supporters to carry out 
lone-offender terrorist attacks targeting the West.


        If you can kill a disbelieving American or European--especially 
        the spiteful and filthy French--or an Australian, or a 
        Canadian, or any other disbeliever from the disbelievers waging 
        war, including the citizens of the countries that entered into 
        a coalition against the Islamic State, then rely upon Allah, 
        and kill him in any manner or way however it may be.\4\
---------------------------------------------------------------------------
    \4\ ``The Failed Crusade,'' Dabiq, Issue 4, https://
azelin.files.wordpress.com/2015/02/the-islamic-state-e2809cdc481biq-
magazine-422.pdf


    Since then, Islamic State supporters and sympathizers have tried to 
answer his call. The January 2015 attacks in Paris on the offices of 
the satirical magazine Charlie Hebdo and a kosher grocery store caused 
some confusion because some operatives appeared to be tied to al Qaeda 
in the Arabian Peninsula (AQAP), while others were inspired by the 
Islamic State. Looking back, however, it appears that these terrorist 
``frenemies'' (the groups they respectively affiliated themselves with 
were fighting one another in a jihadi civil war back in Syria) were 
still part of the lone-offender phenomenon. They may have been inspired 
by groups based in the Middle East, but they were not directed by them.
    Lost in the shuffle after the horror of those attacks was the 
critical turning point in Islamic State terrorism in Europe: the plots 
that were averted by raids in Verviers, Belgium, a week after the 
Charlie Hebdo attack. These raids were a watershed moment for European 
counterterrorism officials, and Belgian authorities in particular, who 
were acting on information that the cell was plotting imminent and 
large-scale attacks in Belgium.\5\ Police discovered automatic 
firearms, precursors for the explosive triacetone triperoxide (TATP), a 
body camera, multiple cell phones, handheld radios, police uniforms, 
fraudulent identification documents, and a large quantity of cash 
during the raid.\6\ Information from European and Middle Eastern 
intelligence services indicated the raids thwarted ``major terrorist 
attacks,'' most likely in Belgium, though the investigation into the 
group's activities spanned several European countries, including 
France, Greece, Spain, and the Netherlands.\7\ The leader of the plot, 
Belgian citizen Abdelhamid Abaaoud, directed the operation from a safe 
house in Athens, Greece, using a cell phone, while other group members 
operated in several other European countries, investigators determined. 
``Items recovered during searches of residences affiliated with the 
cell suggest the group's plotting may have included the use of small 
arms, improvised explosive devices, and the impersonation of police 
officers,'' according to an intelligence assessment by the U.S. 
Department of Homeland Security.\8\
---------------------------------------------------------------------------
    \5\ James Kanter, ``2 Suspects Killed in Gun battle in Belgian 
Antiterror Raid,'' New York Times, January 15, 2015, http://
www.nytimes.com/2015/01/16/world/europe/police-raid-belgium.html?--r=1
    \6\ ``Future ISIL Operations in the West Could Resemble Disrupted 
Belgian Plot,'' Department of Homeland Security Intelligence 
Assessment, May 13, 2015, https://info.publicintelligence.net/DHS-
FutureOperationsISIL.pdf
    \7\ Paul Cruickshank, Mariano Castillo andCatherine E. Shoichet 
``Belgian operation thwarted 'major terrorist attacks,' kills 2 
suspects,'' January 15, 2015, http://www.cnn.com/2015/01/15/world/
belgium-anti-terror-operation/; ``Future ISIL Operations in the West 
Could Resemble Disrupted Belgian Plot,'' Department of Homeland 
Security Intelligence Assessment, May 13, 2015, https://
info.publicintelligence.net/DHS-FutureOperationsISIL.pdf
    \8\ ``Future ISIL Operations in the West Could Resemble Disrupted 
Belgian Plot,'' Department of Homeland Security Intelligence 
Assessment, May 13, 2015, https://info.publicintelligence.net/DHS-
FutureOperationsISIL.pdf
---------------------------------------------------------------------------
    Authorities quickly began to appreciate that the threat facing 
Europe was no longer limited to lone offenders inspired by the group. 
It now included trained and experienced foreign terrorist fighters 
coordinating attacks, directed by the Islamic State, across multiple 
jurisdictions. In the aftermath of the Verviers raid 13 arrests were 
made in Belgium, two in France, and one arrest was made in Greece, 
linked to a safe house in Athens. According to the same DHS 
intelligence assessment, the members of the cell were able to 
communicate and travel unimpeded across borders to facilitate attack 
planning.\9\
---------------------------------------------------------------------------
    \9\ ``Future ISIL Operations in the West Could Resemble Disrupted 
Belgian Plot,'' Department of Homeland Security Intelligence 
Assessment, May 13, 2015, https://info.publicintelligence.net/DHS-
FutureOperationsISIL.pdf
---------------------------------------------------------------------------
    Authorities quickly honed in on the ringleader of the Belgium 
plots, Abaaoud, also known as Abu Umar al-Baljiki. But despite a 
Europe-wide manhunt, Abaaoud managed to elude authorities, escaping 
from Belgium to Syria, and then back. He later bragged about his escape 
in an interview with Dabiq, the Islamic State's propaganda magazine: 
``My name and picture were all over the news yet I was able to stay in 
their homeland, plan operations against them, and leave safely when 
doing so became necessary.'' \10\
---------------------------------------------------------------------------
    \10\ ``From Hypocrisy to Apostasy: The Extinction of the 
Grayzone,'' Dabiq, Issue 7, https://azelin.files.wordpress.com/2015/02/
the-islamic-state-e2809cdc481biq-magazine-722.pdf
---------------------------------------------------------------------------
    The threat to Europe slowly became clearer still. In April 2015, 
French authorities arrested an Islamic State operative who had called 
for medical assistance after accidentally shooting himself. In his 
apartment, authorities found weapons, ammunition, and notes on 
potential targets, including churches, which he had been told to do by 
someone inside Syria, according to Paris prosecutor Francois 
Molins.\11\ A U.S. intelligence bulletin reported the Islamic State 
operative had links to Abaaoud and had previously expressed interest in 
traveling to Syria.\12\
---------------------------------------------------------------------------
    \11\ ``France police arrest man 'planning to attack churches','' 
BBC, April 22, 2015, http://www.bbc.com/news/world-europe-32409253; 
Tony Todd, ``'Syrian accomplice' told Paris suspect to attack 
churches,'' France 24, April 23, 2015, http://www.france24.com/en/
20150422-paris-terror-IS-al-qaeda-church-attack-syrian-accomplice
    \12\ ``Tactics, Techniques, and Procedures Used in the 13 November 
2015 Paris Attacks,'' DHS, FBI, NCTC Joint Intelligence Bulletin, 
November 23, 2015, https://info.publicintelligence.net/DHS-FBI-NCTC-
ParisAttacks.pdf
---------------------------------------------------------------------------
    By May 2015, U.S. law enforcement concluded that a sea change had 
decisively occurred in the nature of the Islamic State terrorist 
threat. While threats remain from Islamic State-inspired lone 
offenders, the U.S. intelligence assessment concluded that future 
Islamic State operations would resemble the elaborate disrupted 
Verviers plot.\13\
---------------------------------------------------------------------------
    \13\ ``Future ISIL Operations in the West Could Resemble Disrupted 
Belgian Plot,'' Department of Homeland Security Intelligence 
Assessment, May 13, 2015, https://info.publicintelligence.net/DHS-
FutureOperationsISIL.pdf


        The plot disrupted by Belgian authorities in January 2015 is 
        the first instance in which a large group of terrorists 
        possibly operating under ISIL direction has been discovered and 
        may indicate the group has developed the capability to launch 
        more complex operations in the West. We differentiate the 
        complex, centrally planned plotting in Belgium from other, 
        more-simplistic attacks by ISIL-inspired or directed 
---------------------------------------------------------------------------
        individuals, which could occur with little to no warning.


    The multi-jurisdictional nature of that plot cemented for European 
and U.S. counterterrorism officials the importance of information 
sharing across national agencies, but implementing the necessary 
reforms would be slow in coming.
    The pace of the Islamic State's foreign-directed plots sped up in 
the summer of 2015. In mid-August, a man was arrested while attempting 
to carry out an attack on a concert in France. The man, who had only 
recently returned from a six-day trip to Syria, told police he was 
ordered to carry out the attack by a man fitting Abaaoud's description. 
Later that month, off-duty U.S. servicemen managed to subdue a gunman 
attempting to carry out an attack on a Thalys train traveling from 
Amsterdam to Paris.
    Luck ran out when terrorists struck Paris on Nov. 13, 2015. These 
multiple coordinated attacks marked a departure from past Islamic State 
plots in the level of training and degree of operational security 
executed by the attackers. According to the U.S. intelligence bulletin, 
using an acronym for the Islamic State, the November Paris attacks 
``demonstrated a greater degree of coordination and use of multiple 
tactics, resulting in higher casualties than has been seen in any 
previous ISIL Western attack.'' \14\ The tactics, techniques, and 
procedures used in the attacks were quickly identified by law 
enforcement as the type of attacks the West should be expecting from 
now on.
---------------------------------------------------------------------------
    \14\ ``Tactics, Techniques, and Procedures Used in the 13 November 
2015 Paris Attacks,'' DHS, FBI, NCTC Joint Intelligence Bulletin, 
November 23, 2015, https://info.publicintelligence.net/DHS-FBI-NCTC-
ParisAttacks.pdf
---------------------------------------------------------------------------
    According to the latest EUROPOL counterterrorism report, the Paris 
attacks and subsequent investigations demonstrate a shift by the 
Islamic State toward ``going global'' in its terrorism campaign. The 
Islamic State has developed an ``external action command,'' EUROPOL 
notes, which ``trained for special forces style attacks in the 
international environment.'' The police organization's warning for 
Europe was stark: ``There is every reason to expect that [the Islamic 
State], [Islamic State-]inspired terrorists or another religiously 
inspired terrorist group will undertake a terrorist attack somewhere in 
Europe again, but particularly in France, intended to cause mass 
casualties amongst the civilian population.'' \15\
---------------------------------------------------------------------------
    \15\ ``Changes in modus operandi of Islamic State terrorist 
attacks,'' Europol, January 18, 2016, https://www.europol.europa.eu/
sites/default/files/publications/changes--in--modus--operandi--of--is--
in--terrorist--attacks.pdf
---------------------------------------------------------------------------
    If the evolution of the Islamic State threat to Europe was not yet 
perfectly clear after the Paris attacks, it has become so in the wake 
of the Brussels bombings. And yet, while Europe is now fully aware of 
the scope of the threat, it remains unprepared to cope with it. This 
includes both shortcomings in the counterterrorism capabilities of 
European states, as well as their efforts to integrate immigrant 
communities into the larger European societies in which they live.
    The counterterrorism challenges were underscored by the inability 
of security services to find Salah Abdeslam for some four months after 
the November Paris attacks. More broadly, the latest report by the 
European Union's counterterrorism coordinator revealed that not all 
member states have established electronic connections to Interpol at 
their border crossings.\16\ The report was uncharacteristically blunt, 
finding that ``information sharing still does not reflect the threat.'' 
\17\ In one glaring example, Europol's Focal Point Travellers database 
has recorded only 2,786 verified foreign terrorist fighters despite 
``well-founded estimates that around 5,000 EU citizens have traveled to 
Syria and Iraq to join ISIL and other extremist groups,'' the report 
said. Worse still, more than 90 percent of the reports of verified 
foreign terrorist fighters came from just five member states.
---------------------------------------------------------------------------
    \16\ ``State of play on implementation of the statement of the 
Members of the European Council of 12 February 2015, the JHA Council 
Conclusions of 20 November 2015, and the Conclusions of the European 
Council of 18 December 2015,'' EU Counter-Terrorism Coordinator, 
Council of the European Union, March 1, 2016, http://
www.statewatch.org/news/2016/mar/eu-council-c-t-coordinator-report-
6450-16.pdf
    \17\ ``State of play on implementation of the statement of the 
Members of the European Council of 12 February 2015, the JHA Council 
Conclusions of 20 November 2015, and the Conclusions of the European 
Council of 18 December 2015,'' EU Counter-Terrorism Coordinator, 
Council of the European Union, March 1, 2016, http://
www.statewatch.org/news/2016/mar/eu-council-c-t-coordinator-report-
6450-16.pdf
---------------------------------------------------------------------------
    But the social integration challenges are more daunting still. In 
Belgium in particular, governance is complicated by the extremely 
federal system of government, divided not only across local, regional, 
and federal levels of government, but also by geography, language, and 
culture. But across Europe, solving the long ignored problem of 
disenfranchised immigrant communities is going to take more time and 
money, both of which are in short supply.
    And these two sets of challenges--counterterrorism and intelligence 
on the one hand, and social and economic integration on the other--are 
intricately interconnected. The economic factors are not a primary 
factor of radicalization, Belgian officials told me, but they are a 
powerful reinforcing factor feeding an identity crisis centered on lack 
of opportunity, broken families, psychological fragility, and cultural 
and religious tension. With an unemployment rate as high as 30 percent, 
it should not be surprising that the vast majority of Belgian recruits 
to the Islamic State are small-time criminals.\18\ One Molenbeek 
recruiter, who is now in jail, approached local youth in the 
neighborhood's ubiquitous storefront mosques and convinced them to 
donate some of the proceeds of their petty crime to fund the travel of 
foreign fighters to Syria.\19\
---------------------------------------------------------------------------
    \18\ Valentina Pop, ``Islamic State Terror Cell Found Refuge in 
Brussels District,'' Wall Street Journal, March 23, 2016, http://
www.wsj.com/articles/islamic-state-terror-cell-found-refuge-in-
brussels-district-1458694455
    \19\ Matthew Dalton, '' Attacks Highlight Belgian Failure to Roll 
Up Extremist Network,'' Wall Street Journal, March 23, 2016, http://
www.wsj.com/articles/attacks-highlight-belgian-failure-to-roll-up-
extremist-network-1458694796
---------------------------------------------------------------------------
    Today's petty criminals are now tomorrow's potential suicide 
bombers. And they will not be carrying out their attacks in faraway war 
zones but rather in the heart of the countries in which they grew up. 
The U.S. intelligence assessment written after the November Paris 
attacks presciently warned that ``the involvement of a large number of 
operatives and group leaders based in multiple countries in future 
ISIL-linked plotting could create significant obstacles in the 
detection and disruption of preoperational activities.'' \20\ That is 
certainly the case, but it is only half the problem. The still greater 
challenge European countries now face is contending with the European 
Islamic State terrorists being groomed today within their own borders.
---------------------------------------------------------------------------
    \20\ ``Future ISIL Operations in the West Could Resemble Disrupted 
Belgian Plot,'' Department of Homeland Security Intelligence 
Assessment, May 13, 2015, https://info.publicintelligence.net/DHS-
FutureOperationsISIL.pdf
---------------------------------------------------------------------------
Fast Track from Zero to Hero
    The harsh fact is that communities ripe for radicalization exist 
across Europe--including in the heart of the capital of the European 
Union--and no one quite knows what to do about it. The day of my visit 
to Molenbeek I first rode a few quick stops on the Brussels metro from 
my hotel in the EU district to Molenbeek, where I met the mayor at her 
office together with police chiefs, members of the local police 
department's ``counter-radicalization cell'' and civilian ``prevention 
officers'' who had just concluded their weekly status-check on the 
local government's counter-radicalization, and social integration 
efforts. Their goal seems Sisyphean: reintegrating returning foreign 
terrorist fighters back into society and preventing still more 
disenfranchised Muslim youth from looking to the Islamic State for 
purpose and belonging.
    The problem: Molenbeek is like another world, another culture, 
festering in the heart of the West. Only eight of 114 imams in Brussels 
speak any of the local languages. The majority Muslim municipality of 
about 100,000 people is the second poorest in the country, with the 
second youngest population, high unemployment and crime rates, and a 
nearly 10% annual population turnover that makes it a highly transient 
community. By some accounts, nearly a third of Molenbeek residents are 
unemployed.\21\
---------------------------------------------------------------------------
    \21\ Valentina Pop, ``Islamic State Terror Cell Found Refuge in 
Brussels District,'' Wall Street Journal, March 23, 2016, http://
www.wsj.com/articles/islamic-state-terror-cell-found-refuge-in-
brussels-district-1458694455
---------------------------------------------------------------------------
    Unsurprisingly, Molenbeek has become an almost ideal recruiting 
ground for the Islamic State, and Belgium has the highest number per 
capita of Western foreign fighters who have traveled to join the 
Islamic State in Syria and Iraq (and, more recently, Libya). And the 
majority of these came from Brussels, and Molenbeek in particular, 
according to Interior Minister Jan Jambon. The local municipality has 
been described as one of a few Islamic State ``hotbeds of recruitment'' 
around the world.\22\ In the words of Belgian Prime Minster Charles 
Michel, ``Almost every time, there is a link to Molenbeek.'' This 
week's bombings were no exception.\23\
---------------------------------------------------------------------------
    \22\ ``Foreign Fighters: An Updated Assessment of the Flow of 
Foreign Fighters into Syria and Iraq,'' The Soufan Group, December 
2015, http://soufangroup.com/wp-content/uploads/2015/12/TSG--
ForeignFightersUpdate3.pdf
    \23\ Robert-Jan Bartunek and Alastair Macdonald, ``Guns, God and 
grievances--Belgium's Islamist 'airbase','' Reuters, November 16, 2015, 
http://www.reuters.com/article/us-france-shooting-belgium-guns-insight-
idUSKCN0T504J20151116
---------------------------------------------------------------------------
    Recruiters offer a sense of family to people from broken homes; of 
belonging to people who feel disenfranchised from society; of 
empowerment to people who feel discriminated against; and of a higher 
calling and purpose to people who feel adrift. Recruiters pitch small 
groups of friends and family together: ``You don't really belong here. 
You are not wanted here. You can't live here. You can't get a job 
here.'' Only then comes the religious extremist part: ``Clearly, you 
should not be living among the infidels.''
What Islamic State offers them, in a nutshell, is a fast track from 
        zero to hero.
    Mix in a gangster culture and you have a combustible combination. 
In ghettoized neighborhoods like Molenbeek, today's criminals are 
tomorrow's terrorists, and the radicalization process is in hyperdrive. 
As a result, ``these guys are not stereotypical Islamists. They gamble, 
drink, do drugs. They are lady killers, wear Armani, fashionable 
haircuts. And they live off crime,'' according to an article published 
by Pro Publica.\24\ Time and again, it turns out the local police were 
aware of suspects like Abdeslam, but only as small-time thieves. ``We 
knew of several Paris-related suspects before,'' a police officer told 
me as I sat down with the mayor, ``but not for terrorism reasons, just 
petty crime and small incidents.''
---------------------------------------------------------------------------
    \24\ Sebastian Rotella, ``Belgium's Deadly Circles of Terror,'' 
ProPublica, March 22, 2016, https://www.propublica.org/article/
belgiums-deadly-circles-of-terror
---------------------------------------------------------------------------
    The mayor quickly chimed in, determined to be clear that I 
understood there was no way to know these crooks had suddenly become 
terrorists, adding ``there was no suspicion of radicalization.'' But 
there is one other common thread that runs through all these cases: 
``The people who leave [for Syria and Iraq] today are all attracted to 
violence,'' mayor Schepmans said. Dutch officials echo this sentiment, 
noting in a recent study that ``everyone who has travelled since 2014 
to the area under [the Islamic State's] control will have seen the 
propaganda images of atrocities against `non-believers'.'' \25\ They 
know what they are getting into.
---------------------------------------------------------------------------
    \25\ ``Life with ISIS: the Myth Unraveled,'' General Intelligence 
and Security Service, Ministry of the interior and Kingdom Relations, 
January 18, 2016, https://english.aivd.nl/publications/publications/
2016/01/15/publication-life-with-isis-the-myth-unvravelled
---------------------------------------------------------------------------
    And while there is a component of religious extremism, Belgian 
officials stress, it is only skin deep. The suspects appear to be 
mainly criminals who are attracted to something that gives them 
identity and a sense of empowerment. They are radicalized to the idea 
of the Islamic state far more than to Islam. ``Salafism [a radical 
Islamist ideology] is mainstream in Belgium,'' was a refrain I heard 
from several of the officials I met. ``Not all Salafists are 
terrorists,'' they stressed, ``but all our terrorists were targeted for 
recruitment by Salafists in these neighborhood extremist networks.''
Syrian Civil War, Islamic State, and Radicalization in Hyper Drive
    It is important to consider as context how the war in Syria 
transformed the nature of radicalization and recruitment of foreign 
terrorist fighters for the Islamic State (and, indeed, for other 
Islamist violent extremist groups). Initially, before the Islamic State 
existed, foreigners traveled to fight in Syria to defend fellow Sunni 
civilians and defend communities against persecution by the Assad 
regime. That was a much easier and faster radicalization process than 
had been the case under al-Qaeda. A person only had to be convinced to 
fight a defensive battle to protect Sunni civilians from the gas 
attacks, barrel bombings and starvation campaigns of the Assad regime, 
not an al-Qaeda-style offensive Jihad against the West.
    As the conflict dragged on more people began to fight with the 
Jabhat al-Nusra's and Ahrar al-Sham's of the world because these more 
radical groups enjoyed greater financial support and therefore had 
access to more money and better weapons. Over time, many people who 
went to fight in Syria for altruistic reasons became increasingly 
radicalized by exposure to these more extreme groups. Some would later 
join the Islamic State.
    The creation of the Islamic State and its so-called caliphate 
further fueled the pace of radicalization. For many vulnerable, at-risk 
Muslim men and women in Europe, the Islamic State provided the 
opportunity to be a part of building something exciting and important. 
They were being invited to get in on the early building stages of 
reestablishing a caliphate, just like the early followers of the 
Prophet Muhammad, making them part of something historic and bigger 
than themselves.
    The Islamic State simplifies world conflicts into black and white 
``which allows someone the opportunity of being the 'hero'--an 
empowering narrative for a disenfranchised, disengaged individual.'' 
\26\ And while the Syrian civil war and then the founding of a so-
called caliphate significantly sped up the pace of the radicalization 
process, there is today a powerful undercurrent that draws in at-risk 
youth having less to do with Islam or Assad but with providing ``the 
thrill of being part of something bigger. It is a youth subculture ... 
and peer groups play a big role.'' \27\
---------------------------------------------------------------------------
    \26\ Danica Kirka, ``ISIS is luring normal Western women with 
troubling simplicity,'' Business Insider, May 28, 2015, http://
www.businessinsider.com/young-women-are-joining-isis-for-more-than-
marriage-2015-5
    \27\ Jason Burke, ``The story of a radicalisation: 'I was not 
thinking my thoughts. I was not myself','' The Guardian, November 26, 
2015, http://www.theguardian.com/world/2015/nov/26/radicalisation-
islam-isis-maysa-not-thinking-my-thoughts-not-myself
---------------------------------------------------------------------------
    After the Paris attacks in November, Belgian Police intercepted a 
phone call to Brussels from Syria and overheard a Belgian militant 
inquiring about his friend Bilal Hadfi, who had been a suicide bomber 
in Paris. The militant asked what his friends were saying about Bilal 
back in the ``sector,'' a reference to Molenbeek where many of the 
Paris attackers grew up. ``Are they talking about him? Are they 
praising him? Are they saying he was a lion?'' the militant asked. His 
particular interest in his peer's opinion of Hadfi made one thing 
perfectly clear: for him and others like him the Islamic State was more 
about personal glory than anything else.
The Road Ahead
    When I met with the mayor of Molenbeek, she was frank about the 
task ahead in getting a handle on radicalization in the municipality 
but was equally blunt in describing the area as a victim of lack of 
government attention and investment. There is also confusion at the 
government level about how to handle the problem. Municipal authorities 
stressed that actual counterterrorism is the job of the Federal Police, 
who maintain a consolidated list of some 670 terrorist suspects, 
including people who have gone to fight in Syria and Iraq (and, more 
recently, Libya), returning foreign fighters, and individuals who seem 
inclined to become foreign terrorist fighters. A separate federal list 
focuses on priority criminal cases (due to the increasingly common 
links between the two, authorities plan to merge the two lists). 
According to local officials, the municipality has documented at least 
85 cases of people who have been radicalized to terrorism, some of whom 
have left to join the Islamic State in Syria and others who have 
returned.\28\
---------------------------------------------------------------------------
    \28\ Valentina Pop, ``Islamic State Terror Cell Found Refuge in 
Brussels District,'' Wall Street Journal, March 23, 2016, http://
www.wsj.com/articles/islamic-state-terror-cell-found-refuge-in-
brussels-district-1458694455
---------------------------------------------------------------------------
    Following the Brussels bombings, authorities are laser-focused not 
only on finding all the perpetrators and their accomplices, but mapping 
out the network of Islamic State terrorists on the ground in Belgium. 
That will be no small task, but even that kind of counterterrorism 
success will only go so far towards reestablishing a sense of security 
in Belgium in particular and Europe more generally. Hardening targets, 
implementing greater border security measures, and enhancing 
intelligence collection and information sharing are critical and still 
subpar, but these tools will only help us contend with yesterday's 
threat; they won't help us get ahead of tomorrow's.
    The good news is that Belgian authorities have now realized the 
need to build a prevention program. And to be fair, that realization 
came not last week but 15 months ago, when Belgian authorities raided a 
residence in Verviers a week after the Charlie Hebdo attack. The raids 
thwarted ``major terrorist attacks" in Belgium and led to the 
intensification of ``Plan R''--the government's national counter-
radicalization plan. The plan predated the Verviers raid, on paper, but 
it has now led to tangible changes. A Coordination Unit for Threat 
Analysis (CUTA) serves as a fusion center between federal level 
national security agencies and local police departments. Nearly 18,000 
police officers have been trained to spot potential radicalization 
identifiers under the Community Policing to Prevent Radicalization 
(COPRA) initiative. And the Federal Police have instituted a ``grasping 
approach'' to radicalization cases in which police are instructed to 
``follow up and don't let go'' until there is no longer any threat the 
person in question is being radicalized to violence.
    In the months before the Brussels bombings, local officials also 
developed ``Plan Molenbeek'' to address what they described to me as 
``the need for proper institutions to address the unique issues facing 
the municipality.'' They remain desperately understaffed, but they have 
already trained 700 community field workers (including teachers and 
social workers) to spot signs of radicalization and partner with 
prevention officers to develop a customized intervention for each case. 
They meet with counterparts in other municipalities facing similar 
issues to share lessons learned. This is especially important, one 
official told me, since ``we are all learning by doing.''
    Still, since the November Paris attacks, tracking cases of people 
on the road to radicalization has only gotten harder. ``Paris was a 
game-changer,'' a local police officer in Molenbeek told me. ``Since 
then it's been like a tsunami of information flowing in from all our 
partners, including concerned members of the community, federal 
agencies, and our own civilian prevention officers.'' Those prevention 
officers play a critical role as civilian employees of the municipality 
focused solely on integrating people into society, but they are 
severely understaffed. The local police also have a counter-
radicalization cell, but they too lack resources. Even with a staffing 
boost after the November Paris attacks, the cell numbers only eight 
officers. ``Most of the people we come across are youngsters, 
unemployed, and often involved in criminal activities,'' prevention 
officers told me. ``We try to integrate people we see into society, 
that's the most important thing now, ideally.'' A police officer chimed 
in, ``And we prosecute, as necessary.''
    Last month, as Belgian and French police officers prepared to raid 
a suspected Islamic State safe-house, I was sitting with a senior 
Belgian counterterrorism official at his downtown headquarters. As we 
discussed the Islamic State threat to Europe in general, and Belgium in 
particular--about five miles from the site of the raid, but a world 
apart--the disconnect between the scale of the threat and the 
preparedness of the response became starkly clear. The manhunt for 
Abdeslam focused the attention of Belgian counterterrorism officials. 
Another terrorist was killed in a shootout at the raid that day, an 
Algerian whose body was found next to a rifle, ammunition, a book on 
Salafism, and an Islamic State flag.\29\
---------------------------------------------------------------------------
    \29\ Greg Botelho, ``Brussels shooting: ISIS flag, ammo found in 
raid tied to Paris attacks,'' CNN March 16, 2016, http://www.cnn.com/
2016/03/16/europe/brussels-raid-paris-attack/
---------------------------------------------------------------------------
    But police found clues pointing to Abdeslam, including his 
fingerprints. Three days later, police finally captured Abdeslam, who 
was being sheltered by family members in Molenbeek, the Brussels 
municipality where he grew up, not far from the family home. But as we 
now know, authorities barely questioned Abdeslam between the time of 
his arrest and the Brussels bombings. Moreover, Turkish authorities had 
warned Belgian and Dutch authorities about one of the Brussels bombers, 
who they had turned away at the border and were sending back to Europe 
as what they specifically described as a ``foreign terrorist fighter.''
    ``We got him,'' an official excitedly tweeted at the news of 
Abdeslam's capture. In truth the job has just begun. But after meeting 
with officials in Molenbeek, I allowed myself to feel just a touch of 
optimism: the police and prevention officers I met in Molenbeek were 
among the most impressive I've met anywhere. ``We are discovering on a 
daily basis new ways to work in the prevention space,'' one of them 
commented as our meeting came to a close. The problem: What they need 
is in short supply: more resources and more time.


    The Chairman. Thank you.
    Director Olsen?

 STATEMENT OF HON. MATTHEW G. OLSEN, FORMER DIRECTOR, NATIONAL 
            COUNTERTERRORISM CENTER, WASHINGTON, DC

    Mr. Olsen. Thank you very much, Chairman and Ranking Member 
Cardin, distinguished members of the committee. I am honored to 
be here this morning.
    We meet this morning in the wake, as you mentioned, 
Chairman, of the horrific attacks in Brussels and recently in 
Paris and in San Bernardino. These massacres serve as a 
sobering reminder of the complexity of the terrorism challenges 
that we face.
    By all measures, ISIS presents the most urgent threat to 
our security in the world today. The group has seized and is 
governing territory and, at the same time, is securing the 
allegiance of other terrorist groups across the Middle East and 
North Africa. ISIS' sanctuary enables it to recruit, train, and 
execute external attacks, as we have seen now in Europe, and it 
enables it to incite assailants around the world. It has 
recruited thousands of militants to its cause, and it uses 
propaganda to radicalize countless others in the West. At the 
same time, we continue to face an enduring threat from Al Qaeda 
and its affiliates who maintain the intent and capability to 
attack us here in the West.
    In my brief opening remarks, I will focus on the nature of 
the terrorist threats, and I will touch on some of the ways I 
think we need to consider enhancing our strategy to confront 
ISIS.
    Now, I will begin with the spread of ISIS. There are really 
three overarching factors in my view that account for the rise 
and rapid success of ISIS.
    First, it has exploited the civil war in Syria and lack of 
security in northern Iraq.
    Second, it has proven to be an effective fighting force. 
Now, since September 2014, the U.S.-led military coalition has 
halted ISIS momentum, reversed some of the group's territorial 
gains, but ISIS has adapted in the face of these other 
coalition airstrikes.
    And then third, ISIS views itself as the new leader of a 
global jihad. It has developed an unprecedented ability to 
communicate and radicalize its followers around the world.
    Today, in terms of its strength, ISIS has up to 25,000 
fighters in Iraq and Syria. It has also branched out, taking 
advantage of the chaos and unrest in places like Yemen and 
Libya to expand to new territory and enlist new followers. ISIS 
can now claim formal alliances with eight groups across an arc 
of instability stretching from the Middle East across North 
Africa.
    And from this position, ISIS poses a multifaceted threat to 
us here in the United States and, as well, to our allies in 
Europe. In the past 2 years, ISIS reportedly has directed or 
inspired more than 80 external attacks in as many as 20 
nations. And then, of course, most concerning, the recent 
attacks in Brussels and Paris demonstrate that ISIS now has 
both the intent and capability to direct and execute 
sophisticated, coordinated attacks in Western Europe.
    Here at home, the threat from ISIS is on a smaller scale, 
but it is still persistent. We have experienced attacks that 
ISIS has inspired in San Bernardino and Garland, Texas.
    I think several factors are driving this trend toward the 
increasing pace and scale of terrorism violence.
    First is the sheer number of Europeans and other Westerners 
who have gone to Syria to join the fight there. More than 6,000 
Europeans have traveled to Syria. Among the Europeans who have 
left to go to Syria, hundreds have returned to their own 
countries, typically battle-hardened, further trained, and 
further radicalized.
    Here, while the principal threat in the United States is 
from homegrown ISIS-inspired actors, the fact that many 
Americans have traveled to Syria and Iraq to fight, along with 
the thousands more who have gone from visa waiver countries in 
Europe, makes it clear that we need to be concerned about the 
possibility of a Paris or Brussels style attack here at home in 
the United States.
    Secondly, ISIS has developed more advanced tactics in 
planning and executing these attacks. They stage coordinated 
attacks. They have effectively hampered police responses. They 
appear to have achieved a certain level of proficiency in bomb-
making.
    And third, existing networks of extremists in Europe are 
providing the infrastructure to support these attacks.
    Looking more broadly, the rise of ISIS should be viewed as 
a manifestation of where we are with the global jihadist 
movement today. That movement has expanded and diversified 
after the Arab Spring. There are essentially four failed states 
in North Africa and the Middle East, Iraq, Syria, Yemen, and 
Libya, that provide safe haven for these groups.
    Now, looking at the strategy to defeat ISIS, the committee 
has held a number of hearings and is familiar with the 
administration's strategy, the combination of military efforts, 
the counterterrorism lines of effort. Let me focus on ways I 
think we need to consider augmenting that strategy.
    One is a surge in our intelligence capabilities. A surge 
would enhance our technical surveillance capabilities, develop 
sources to penetrate ISIS and form a closer relationship with 
intelligence services. This would address the gaps that exist 
because of the use of encryption, and it would address the gap 
that exists because of the illegal disclosures of our 
intelligence surveillance capabilities, which are hampering our 
intelligence community today.
    Second, I think we should look to work in concert with 
Europe to build Europe's ability to share information and to 
improve its watch listing capabilities. Today, European nations 
do not always alert each other when they encounter a terrorism 
suspect at a border.
    And then finally, we should redouble our efforts to counter 
ISIS on the ideological front, beginning with the recognition 
that both in Europe and in the United States we need to build 
and maintain the trust of Muslim communities. That also means 
that we need to unambiguously oppose the hateful rhetoric that 
erodes that trust.
    Mr. Chairman, in conclusion, we should not underestimate 
the capacity of ISIS and other groups to adapt and evade our 
defenses and to carry out acts of violence both here at home 
and around the world. But no terrorist group, not ISIS, is 
invincible. The enduring lessons of 9/11 are that we can 
overcome and defeat terrorism with strength, unity, and 
adherence to our founding values and that American leadership 
is indispensable to that fight.
    I look forward to your questions.
    [Mr. Olsen's prepared statement follows:]


            Prepared Statement of Matthew G. Olsen, Former 
            Director of the National Counterterrorism Center

    Thank you Chairman Corker, Ranking Member Cardin, and distinguished 
members of the committee. I am honored to have this opportunity to 
appear before you to discuss the spread of the Islamic State in Iraq 
and Syria and the threat from transnational terrorism.
    We meet this morning in the wake of the horrific attacks in 
Brussels last month and the recent attacks Paris and in San Bernardino 
late last year. These massacres serve both as a sobering reminder of 
the complexity of the threats we face from terrorist groups of global 
reach and as a call for action in the ongoing struggle against 
terrorism. Indeed, these attacks give this hearing added significance, 
as you convene to examine the threat to the United States and our 
interests around the world and the steps we should take to counter 
terrorist groups both at home and abroad.
    By any measure, ISIS presents the most urgent threat to our 
security in the world today. The group has exploited the conflict in 
Syria and sectarian tensions in Iraq to entrench itself in both 
countries, now spanning the geographic center of the Middle East. Using 
both terrorist and insurgent tactics, the group has seized and is 
governing territory, while at the same time securing the allegiance of 
allied terrorist groups across the Middle East and North Africa. ISIS's 
sanctuary enables it to recruit, train, and execute external attacks, 
as we have now seen in Europe, and to incite assailants around the 
world. It has recruited thousands of militants to join its fight in the 
region and uses its propaganda campaign to radicalize countless others 
in the West. And at the same time, we continue to face an enduring 
threat from al Qaida and its affiliates, who maintain the intent and 
capacity to carry out attacks in the West.
    In my remarks today, I will focus first on the nature of the 
terrorist threat from transnational terrorist groups, focusing on ISIS 
and al-Qaida. I then will address some of the key elements of the 
strategy to degrade and defeat these groups, as well as the challenges 
we face ahead.
The Spread of ISIS
    Let me begin with the spread of ISIS from its roots in Iraq. ISIS 
traces its origin to the veteran Sunni terrorist, Abu Mus'ab al-
Zarqawi, who founded the group in 2004 and pledged his allegiance to 
bin Laden. Al Qaeda in Iraq, as it was then known, targeted U.S. forces 
and civilians to pressure the United States and other countries to 
leave Iraq and gained a reputation for brutality and tyranny.
    In 2007, the group's continued targeting and repression of Sunni 
civilians in Iraq caused a widespread backlash--often referred to as 
the Sunni Awakening--against the group. This coincided with a surge in 
U.S. and coalition forces and Iraq counterterrorism operations that 
ultimately denied ISIS safe haven and led to a sharp decrease in its 
attack tempo. Then in 2011, the group began to reconstitute itself amid 
growing Sunni discontent and the civil war in Syria. In 2012, ISIS 
conducted an average of 5-10 suicide attacks in Iraq per month, an 
attack tempo that grew to 30-40 attacks per month in 2013.
    While gaining strength in Iraq, ISIS exploited the conflict and 
chaos in Syria to expand its operations across the border. The group 
established the al-Nusrah Front as a cover for its activities in Syria, 
and in April 2013, the group publicly declared its presence in Syria 
under the ISIS name. Al-Nusrah leaders immediately rejected ISIS's 
announcement and publicly pledged allegiance to al-Qaida. And by 
February 2014, al-Qaida declared that ISIS was no longer a branch of 
the group.
    At the same time, ISIS accelerated its efforts to remove Iraqi and 
Syrian government control of key portions of their respective 
territories, seizing control of Raqqa, Syria, and Fallujah, Iraq, in 
January 2014. The group marched from its safe haven in Syria, across 
the border into northern Iraq, slaughtering thousands of Iraqi Muslims, 
Sunni and Shia alike, on its way to seizing Mosul in June 2014. Through 
these battlefield victories, the group gained weapons, equipment, and 
territory, as well as an extensive war chest. In the summer of 2014, 
ISIS declared the establishment of an Islamic caliphate under the name 
the ``Islamic State'' and called for all Muslims to pledge support to 
the group and its leader, Abu Bakr al-Baghdadi.
    Three overarching factors account for the rise and rapid success of 
ISIS over the past three years.
    First, ISIS has exploited the civil war in Syria and the lack of 
security in northern Iraq to establish a safe haven. At the same time, 
Assad's brutal suppression of the Syrian people acted as a magnet for 
extremists and foreign fighters. In western Iraq, the withdrawal of 
security forces during the initial military engagements with ISIS left 
swaths of territory ungoverned. ISIS has used these areas to establish 
sanctuaries in Syria and Iraq from where the group could amass and 
coordinate fighters and resources with little interference. With 
virtually no security forces along the Iraq-Syria border, ISIS was able 
to move personnel and supplies with ease within its held territories.
    Second, ISIS has proven to be an effective fighting force. Its 
battlefield strategy employs a mix of terrorist operations, hit-and-run 
tactics, and paramilitary assaults to enable the group's rapid gains. 
These battlefield advances, in turn, sparked other Sunni insurgents 
into action, and they have helped the group hold and administer 
territory. Disaffected Sunnis have had few alternatives in Iraq or 
Syria. The leadership in both countries has pushed them to the 
sidelines in the political process for years, failing to address their 
grievances. ISIS has been recruiting these young Sunnis to fight. Since 
September 2014, the U.S.-led military coalition has halted ISIS's 
momentum and reversed the group's territorial gains, but ISIS has 
sought to adapt its tactics in the face of coalition air strikes.
    Third, ISIS views itself as the new leader of the global jihad. The 
group has developed an unprecedented ability to communicate with its 
followers worldwide. It operates the most sophisticated propaganda 
machine of any terrorist group. ISIS disseminates timely, high-quality 
media content on multiple platforms, including on social media, 
designed to secure a widespread following for the group. ISIS uses a 
range of media to tout its military capabilities, executions of 
captured soldiers, and battlefield victories.
    ISIS's media campaign also is aimed at drawing foreign fighters to 
the group, including many from Western countries. The media campaign 
also allows ISIS to recruit new fighters to conduct independent or 
inspired attacks in the West. ISIS's propaganda outlets include 
multiple websites, active Twitter feeds, YouTube channels, and online 
chat rooms. ISIS uses these platforms to radicalize and mobilize 
potential operatives in the United States and elsewhere. The group's 
supporters have sustained this momentum on social media by encouraging 
attacks in the United States and against U.S. interests in retaliation 
for our airstrikes. As a result, ISIS threatens to outpace al-Qaida as 
the dominant voice of influence in the global extremist movement.
The Threat from ISIS Today
    Today, ISIS reportedly has between 20,000 and 25,000 fighters in 
Iraq and Syria, an overall decrease from the number of fighters in 
2014. ISIS controls much of the Tigris-Euphrates basin. Significantly, 
however, ISIS's frontlines in parts of northern and central Iraq and 
northern Syria have been pushed back, according to the Defense 
Department, and ISIS probably can no longer operate openly in 
approximately 25 to 30 percent of populated areas in Iraq and Syria 
that it dominated in August 2014.
    ISIS also has branched out, taking advantage of the chaos and lack 
of security in countries like Yemen to Libya to expand to new territory 
and enlist new followers. ISIS can now claim formal alliances with 
eight affiliated groups across an arc of instability and unrest 
stretching from the Middle East across North Africa.
    Libya is the most prominent example of the expansion of ISIS. 
There, ISIS's forces include as many as 6,500 fighters, who have 
captured the town of Sirte and 150miles of coastline over the past 
year. This provides ISIS with a relatively safe base from which to 
attract new recruits and execute attacks elsewhere, including on 
Libya's oil facilities. In addition, ISIS has proven its ability to 
conduct operations in western Libya, including a suicide bombing at a 
police training, which killed at least 60 people earlier this year.
    From this position, ISIS poses a multi-faceted threat to Europe and 
to the United States. The strategic goal of ISIS remains to establish 
an Islamic caliphate through armed conflict with governments it 
considers apostate--including European nations and the United States. 
In early 2014, ISIS's leader Abu Bakr al-Baghdadi warned that the 
United States will soon ``be in direct conflict'' with the group. In 
September 2014, the group's spokesperson Abu Muhammad al-Adnani 
released a speech instructing supporters to kill disbelievers in 
Western countries ``in any manner or way,'' without traveling to Syria 
or waiting for direction.
    ISIS has established an external operations organization under 
Adnani's leadership. This unit reportedly is a distinct body inside 
ISIS responsible for identifying recruits, supplying training and cash, 
and arranging for the delivery of weapons. The unit's main focus has 
been Europe, but it also has directed deadly attacks outside Europe, 
including in Turkey, Egypt, Tunisia and Lebanon.
    A recent New York Times report attributes 1,200 deaths to ISIS 
outside Iraq and Syria, and about half of the dead have been local 
civilians in Arab countries, many killed in attacks on mosques and 
government offices. In the past two years ISIS reportedly has directed 
or inspired more than 80 external attacks in as many as 20 nations. And 
ISIS has carried out or inspired at least 29 deadly assaults targeting 
Westerners around the world, killing more than 650 people.
    Most concerning, the recent attacks in Brussels and Paris 
demonstrate that ISIS now has both the intent and capability to direct 
and execute sophisticated attacks in Western Europe. These attacks 
reflect an alarming trend. Over the past year, ISIS has increased the 
complexity, severity, and pace of its external attacks. The Brussels 
and Paris attacks were not simply inspired by ISIS, but rather they 
were ISIS-planned and directed. And they were conducted as part of a 
coordinated effort to maximize casualties by striking some of the most 
vulnerable targets in the West: a train station and airport in 
Brussels, and a nightclub, cafe, and sporting arena in Paris. Further, 
recent reports that ISIS has used chemical weapons in Syria, and that 
it conducted surveillance of Belgium nuclear facilities, raise the 
specter that the group is intent on using weapons of mass destruction.
    In the United States, the threat from ISIS is on a smaller scale 
but persistent. We have experienced attacks that ISIS has inspired--
including the attacks in San Bernardino and in Garland, Texas--and 
there has been an overall uptick over the past year in the number of 
moderate-to-small scale plots. Lone actors or insular groups--often 
self-directed or inspired by overseas groups, like ISIS--pose the most 
serious threat to carry out attacks here. Homegrown violent extremists 
will likely continue gravitating to simpler plots that do not require 
advanced skills, outside training, or communication with others. The 
online environment serves a critical role in radicalizing and 
mobilizing homegrown extremists towards violence. Highlighting the 
challenge this presents, the FBI Director said last year that the FBI 
has homegrown violent extremist cases, totaling about 900, in every 
state. Most of these cases are connected to ISIS.
    Several factors are driving this trend toward the increasing pace 
and scale of terrorist-related violence. First, the sheer number of 
number of Europeans and other Westerners who have gone to Syria to 
fight in the conflict and to join ISIS is supplying a steady flow of 
operatives to the group. Reports indicate that more than 6,000 
Europeans--including many French, German, British, and Belgian 
nationals--have travelled to Syria to join the fight. This is part of 
the total of approximately 40,000 foreign fighters in the region. Among 
the Europeans who have left for Syria, several hundred fighters have 
returned to their home countries, typically battle-hardened, trained, 
and further radicalized. The number of Americans who have travelled to 
Syria or Iraq, or have tried to, exceeds 250.
    As such, we should not underestimate the potential of an ISIS-
directed attack in the United States. While the principal threat from 
ISIS in the United States is from homegrown, ISIS-inspired actors, the 
fact that so many Americans have travelled to Syria and Iraq to fight, 
along with thousands more from visa waiver countries in Europe, raises 
the real concern that these individuals could be deployed here to 
conduct attacks similar to the attacks in Paris and Brussels.
    Second, ISIS has developed more advanced tactics in planning and 
executing these attacks. In both Brussels and Paris, the operatives 
staged coordinated attacks at multiple sites, effectively hampering 
police responses. The militants exploited weaknesses in Europe's border 
controls in order to move relatively freely from Syria to France and 
Belgium. The group has also moved away from previous efforts to attack 
symbolically significant targets--such as the 2014 attack on a Jewish 
museum in Brussels--and appears to have adopted the guidance of a 
senior ISIS operative in the group's online magazine, who directed 
followers ``to stop looking for specific targets'' and to ``hit 
everyone and everything.'' Further, the explosives used in Paris and 
likely in Brussels indicate the terrorists have achieved a level of 
proficiency in bomb making. The use of TATP in Paris and the discovery 
of the material in raids in Brussels suggest that the operatives have 
received sophisticated explosives training, possibly in Syria
    Third, existing networks of extremists in Europe are providing the 
infrastructure to support the execution of attacks there. The 
investigations of the Paris and Belgium attacks have revealed embedded 
radical networks that supply foreign fighters to ISIS in Syria and 
operatives and logistical support for the terrorist attacks in those 
cities. While such entrenched and isolated networks are not present in 
the United States, ISIS continues to target Americans for recruitment, 
including through the use of focused social media, in order to identify 
and mobilize operatives here.
    Looking more broadly, the rise of ISIS should be viewed as a 
manifestation of the transformation of the global jihadist movement 
over the past several years. We have seen this movement diversify and 
expand in the aftermath of the upheaval and political chaos in the Arab 
world since 2010. Instability and unrest in large parts of the Middle 
East and North Africa have led to a lack of security, border control, 
and effective governance. In the last few years, four states--Iraq, 
Syria, Libya, and Yemen--have effectively collapsed. ISIS and other 
terrorist groups exploit these conditions to expand their reach and 
establish safe havens. As a result, the threat now comes from a 
decentralized array of organizations and networks, with ISIS being the 
group that presents the most urgent threat today.
    Specifically, Al-Qaida core continues to support attacking the West 
and is vying with ISIS to be the recognized leader of the global jihad. 
There is no doubt that sustained
    U.S. counterterrorism pressure has led to the steady elimination of 
al-Qaida's senior leaders and limited the group's ability to operate, 
train, and recruit operatives. At the same time, the core leadership of 
al-Qaida continues to wield substantial influence over affiliated and 
allied groups, such as Yemen-based al-Qaida in the Arabian Peninsula. 
On three occasions over the past several years, AQAP has sought to 
bring down an airliner bound for the United States. And there is reason 
to believe it still harbors the intent and substantial capability to 
carry out such a plot.
    In Syria, veteran al-Qaida fighters have traveled from Pakistan to 
take advantage of the permissive operating environment and access to 
foreign fighters. They are focused on plotting against the West. Al-
Shabaab also maintains a safe haven in Somalia and threatens U.S. 
interests in the region, asserting the aim of creating a caliphate 
across east Africa. The group has reportedly increased its recruitment 
in Kenya and aims to destabilize parts of Kenya. Finally, AQIM (and its 
splinter groups) and Boko Haram-- now an official branch of ISIS--
continue to maintain their base of operations in North and West Africa 
and have demonstrated sustained capabilities to carry out deadly 
attacks against civilian targets.
The Strategy To Defeat ISIS
    Against this backdrop, I will briefly address the current strategy 
to confront and ultimately defeat ISIS. As formidable as ISIS has 
become, the group is vulnerable. Indeed, the U.S.-led military campaign 
has killed thousands of ISIS fighters and rolled back ISIS's 
territorial gains in parts of Iraq and Syria. ISIS has not had any 
major strategic military victories in Iraq or Syria for almost a year. 
As ISIS loses its hold on territory, its claim that it has established 
the ``caliphate'' will be eroded, and the group will lose its central 
appeal.
    On the military front, a coalition of twelve nations has conducted 
more than 8,700 airstrikes in Syria and Iraq, according to the Defense 
Department. These strikes have taken out a range of targets, including 
ISIS vehicles, weaponry, training camps, oil infrastructure, and 
artillery positions. In addition, several nations have joined the 
United States in deploying military personal to assist the Iraqi 
government, training more than 17,000 Iraqi security forces.
    The military effort also has included the successful targeting of 
ISIS leaders. United States special operations forces have gone into 
Syria to support the fight against ISIS, bringing a unique set of 
capabilities, such as intelligence gathering, enabling local forces, 
and targeting high-value ISIS operatives and leaders.
    From a counterterrorism perspective, the United States is pursuing 
multiple lines of effort. First, the United States is focusing on 
stemming the flow of foreign fighters to Syria, and disrupting ISIS's 
financial networks. The government reports that at least 50 countries 
plus the United Nations now contribute foreign terrorist fighter 
profiles to INTERPOL, and the United States has bilateral arrangements 
with 40 international partners for sharing terrorist travel 
information. In 2015, the U.S. government sanctioned more than 30 ISIS-
linked senior leaders, financiers, foreign terrorist facilitators, and 
organizations, helping isolate ISIS from the international financial 
system. In addition, since 2014, the FBI has arrested approximately 65 
individuals in ISIS-related criminal matters.
    Second, to counter ISIS propaganda, the United States is 
strengthening its efforts to prevent ISIS from radicalizing and 
mobilizing recruits. The White House recently announced the creation of 
an interagency countering violent extremism (CVE) task force under the 
leadership of the Department of Homeland Security and the Department of 
Justice, with additional staffing from the FBI and National 
Counterterrorism Center. The CVE task force is charged with the 
integrating whole-of-government programs and activities and 
establishing new CVE efforts. As part of this initiative, the DHS 
Office for Community Partnerships is developing innovative ways to 
support communities that seek to discourage violent extremism and to 
undercut terrorist narratives.
    Third, and more broadly, the United States continues to lead the 
international diplomatic effort to resolve the underlying conflicts in 
the region. This includes working toward a negotiated political 
transition that removes Bashar al-Asad from power and ultimately leads 
to an inclusive government that is responsive to the needs of all 
Syrians. This effort also includes supporting the Iraqi government's 
progress toward effective and inclusive governance, stabilization 
efforts, and reconciliation.
    To augment this strategy, there are a number of initiatives that 
merit consideration.
    One is a surge in our intelligence capabilities. Such a surge 
should include enhancing our technical surveillance capabilities, 
providing additional resources for the development of sources to 
penetrate ISIS, and fostering closer relationships with intelligence 
services in the region. This focus on intelligence collection would 
help address the fact that our law enforcement and intelligence 
agencies have found it increasingly difficult to collect specific 
intelligence on terrorist intentions and plots. This intelligence gap 
is due in part to the widespread availability and adoption of encrypted 
communication technology. Indeed, ISIS has released a how-to manual to 
its followers on the use of encryption to avoid detection. The gap also 
is the result of the illegal disclosures of our intelligence collection 
methods and techniques. These disclosures have provided terrorists with 
a roadmap on how to evade our surveillance. Therefore, rebuilding our 
intelligence capabilities should be an imperative.
    Next, the United States should continue to work in concert with 
European partners and support Europe's effort to break down barriers to 
information sharing among agencies and among nations and to strengthen 
border controls. Today, European nations do not always alert each other 
when the encounter a terrorism suspect at a border. Europe should 
incorporate the lessons we learned after 9/11 and adopt structural 
changes that enable sharing of information between law enforcement and 
intelligence agencies and that support watchlisting of suspected 
terrorists.
    Finally, the United States should redouble its efforts to counter 
ISIS on the ideological front. This begins with a recognition that the 
United States, along with nations in Europe, must build and maintain 
trust and strong relationships with Muslim communities who are on the 
front lines of the fight against radicalization. This also means we 
must reject unambiguously the hateful rhetoric that erodes that trust. 
The U.S. strategy should focus on empowering Muslim American 
communities to confront extremist ideology, working to galvanize and 
amplify networks of people, both in the government and private sector, 
to confront ISIS's ideology of oppression and violence. While the 
government has made strides in this direction, the pace and scale of 
the effort has not matched the threat.
Conclusion
    In the wake of the terrorist attacks in Europe and here in the 
United States, our continued focus on ISIS and transnational terrorist 
threats is absolutely warranted. We should not underestimate the 
capacity of ISIS and other groups to adapt and evade our defenses and 
to carry out acts of violence, both here at home and around the world.
    But no terrorist group is invincible. The enduring lessons of 9/11 
are that we can overcome and defeat the threat of terrorism through 
strength, unity, and adherence to our founding values, and that 
American leadership is indispensible to this fight.
    I look forward to answering your questions.


    The Chairman. Thank you.
    I am going to reserve my time for interjections and turn to 
our ranking member, Senator Cardin.
    Senator Cardin. Well, Mr. Olsen, you may have started to 
answer the question I was going to ask you, and that is you are 
the former Director of the National Counterterrorism Center. So 
I was curious as to whether there are lessons that we have 
learned, that you learned in fighting Al Qaeda and other 
terrorist groups that apply to ISIL, recognizing ISIL is unique 
in its caliphate and what it is attempting to do. But your 
final comment I thought was striking in that if we have unity 
and resolve and leadership, we can defeat ISIL. Were there 
other lessons learned in what we did successfully in dealing 
with Al Qaeda or other terrorist organizations that we can now 
use for ISIL?
    Mr. Olsen. I think there certainly are lessons. You know, 
at a very strategic level, obviously unity and leadership and 
resolve are crucial. But more tactically, we learned a lot over 
the last 15 years since 9/11.
    One is the hardest lessons perhaps to actually achieve is 
to deny these groups safe haven. That is one of the keys. We 
learned that in Afghanistan and we have learned it in terms of 
our efforts to mount sustained pressure on Al Qaeda wherever it 
exists. We see that now with what has happened with ISIS in 
Iraq and Syria. Wherever these groups gain a foothold, wherever 
they have the opportunity, a sanctuary to plot and train, 
inevitably they turn to carry out external attacks. So limiting 
and eventually destroying a safe haven is crucial.
    Another point to make is the importance of information 
sharing, and this goes directly to the lessons that we learned 
since 9/11 and what we need now to work with our European 
partners to instill. That is the importance of sharing 
information across the intelligence and law enforcement divide. 
We certainly learned that after 9/11, breaking down barriers to 
that type of sharing and also vertically in the United States 
from the Federal to the State level--and you see that as well 
in Europe--to instill an incentive, really the imperative to 
share information at all levels.
    I think those are some of the enduring lessons from 9/11.
    Senator Cardin. That is very helpful.
    You mentioned that there are six other countries in which 
ISIL has strength. Our staff, I think, has identified 20 
countries where there are groups that show support for ISIL. 
You indicate that we cannot have any safe havens.
    Other than Iraq and Syria, what country would you next put 
as our greatest area of concern that a safe haven could be 
developing?
    Mr. Olsen. I think you would find that there is a consensus 
here among us that Libya is the next most concerning nation. In 
Libya, ISIS has as many as 6,500 fighters. They control the 
coastal town of Sirte and about 150 miles of coastline. They 
have demonstrated a capability to carry out attacks as far as 
in western Libya. They carried out one of the most deadly 
suicide bombings in western Libya, killing 60 people at a 
police station. And then you consider sort of the geographic 
location of Libya to Europe. So I think if I picked out the 
next most concerning country, it would clearly be Libya.
    Senator Cardin. And of course, the formula there is similar 
to what we see in Syria. We have conflicting political entities 
leaving a vacuum that ISIL can certainly go into. So thank you 
for that.
    Dr. Levitt, I want to say something at least optimistic 
here for a moment, if I might, because I agree with your 
analysis on the causes for radicalization. There was an article 
in the ``Washington Post'' today by Joby Warrick that says that 
recent pollings show that we have increased from 60 to 80 
percent of the young Arabs who disavow the extremist tactics 
being used and disavow the organization totally, even if it did 
not use terrorist tactics, saying, the survey suggests, that 
religious fervor plays a secondary role at best when young 
Arabs do decide to sign up with the Islamic State. Joblessness 
or poor economic prospects appear to be the top reason. It sort 
of reinforces the point that you made that we really need to 
deal with some of these underlying problems.
    How do you deal with that? Clearly, poverty exists. It 
exists throughout the region. So the economic issues are always 
going to be there. What strategies can work in Iraq and Syria 
to really deal with the radicalization of the population?
    Dr. Levitt. Thank you very much for the question.
    Ultimately what we are talking about is good governance. 
Most studies actually show that poverty is not what is driving 
terrorism, but poverty plays an important role in the mix of 
things all together. And what we are talking about is good 
governance, not necessarily at the federal level but at the 
local level. People need to be able to go about their daily 
lives and achieve what they need to achieve as basic human 
beings. And when they cannot, it creates a cognitive opening 
for sometimes dangerous ideas, not always dangerous, but for 
ideas that will help them understand what is happening to them. 
And sometimes these very radical ideas are the ones that have 
the greatest resonance, especially when things are really 
tough.
    If I may, I would like to add one comment on the Libya 
question, and that is when I was just in Europe--and I am going 
back several more times over the next few weeks--the Europeans 
stressed to me that they are very concerned about Libya in part 
also because of the foreign terrorist fighter issue. They are 
beginning to make it more difficult for people to travel to 
Iraq and Syria. People are still going. But as they make it 
more complicated, they are seeing people, Europeans, travel to 
Libya, and that is a concern.
    And let us be clear. It is not Islamic State in Libya. 
There are at least three distinct Islamic States, Islamic State 
provinces, and they are not exactly the same in Libya.
    And on the issue of what we can learn, I have to say that 
we have often for years now talked about whole of government. 
But only recently--and I give credit to the administration--
have we created a task force at DHS with a deputy from DOJ and 
interagency buy-in, something that Matt was working on a lot 
when he was there. And he can speak to this in spades about the 
importance of getting greater buy-in from other parts of the 
interagency.
    Now we have a task force that was created top down by the 
President, and we really need to get in not only the FBI and 
NCTC side of government but the HHS and Education and other 
parts of government as well.
    Senator Cardin. Let me get one more question to you, Dr. 
Levitt. You said one of the reasons why recruitment was 
effective is that young believers want to get in in the 
beginning state of a new state, the caliphate. So how important 
is it, the territorial dimensions of ISIL, in its recruitment?
    Dr. Levitt. I think the territorial piece for ISIL 
recruitment is huge, and I think nothing has had a bigger 
impact on setting them back, including setting back their 
recruitment campaigns than battlefield defeat. They cannot 
claim to be establishing this idyllic caliphate that they have 
tried to create online. They cannot say that they are remaining 
and expanding, which is their own words, their own litmus test 
metric for success. And if there is not an idyllic caliphate to 
get in and build from the ground level up and if that caliphate 
is exposed for not really being much of a caliphate, certainly 
not being like what was created with the Prophet Muhammad and 
his original followers, then this line of reasoning does not 
resonate as much as it might otherwise.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Johnson?
    Senator Johnson. Thank you, Mr. Chairman.
    In January 2016, through excellent police work, the FBI 
foiled a plot in Milwaukee, Wisconsin. It was a plot against 
the Masonic Temple. The would-be terrorist's name was Samy 
Mohamed Hamzeh. In the complaint there is an informant that 
quoted him a number of times. I just want to read you excerpts 
from that complaint.
    This is Samy Mohamed Hamzeh. I quote. ``I am telling you if 
this hit is executed, it will be known all over the world. The 
people will be scared and the operations will increase. This 
way we will be igniting it. I mean, we are marching at the 
front of the war, and we will eliminate everyone.
    Mr. Wood, you encapsulated in your article what ISIS really 
wants--the significance, as Dr. Levitt was talking about, of 
that territory, of that caliphate. We understand how incredibly 
effective ISIS is at using social media to inspire people like 
Samy Mohamed Hamzeh. I want to ask all the panelists, do you 
think ISIS can be contained if it has that caliphate, if that 
territory exists? Is there any way you can contain ISIS's 
ability to incite that type of activity? Mr. Wood, I will start 
with you.
    Mr. Wood. I would first echo something that Dr. Levitt 
said. This slogan of remaining and expanding was ubiquitous in 
ISIS propaganda a year ago. There is a reason that is not 
mentioned quite as much nowadays, namely that it is being 
falsified. It is not expanding.
    Now, the ability actually to contain it and to suffer no 
attacks to be safe outside of its borders, to make sure that no 
planning takes place within the caliphate to attack us outside 
of it--that will never be possible. There will constantly be an 
effort to do that and especially as the caliphate ceases to be 
an expanding caliphate. It is so important for them to dominate 
the news cycle, to be able to present themselves as the A list 
of global jihad that I would expect them to continue and to 
expand their foreign attacks. So in that sense, I do not think 
it is possible to contain the group.
    Now, is it possible to contain them within certain limits, 
though? That is, can we contain them and limit their ability to 
attack us outside of their territory to a tolerable amount? 
Now, what we consider tolerable when we consider attacks on the 
homeland is perhaps up for debate. I think that we can keep 
them to a level that we might have to consider manageable, 
which would be the level that we have for the last few years.
    Senator Johnson. Let me quickly interject. These numbers--
by the way, I understand they are very imperfect, but this is 
from the State Department's START report, the study of 
terrorism and response to terrorism, showing that prior to 9-
11-2001, on average there are less than 5,000 deaths due to 
terrorist attack. In 2012, that grew to 15,000. In 2014, it was 
up to 32,700.
    So, as far as a ``tolerable level of terrorism,'' I am not 
sure there is such a thing. My sense is that the problem is 
actually growing.
    Mr. Olsen, you certainly talked about the fact that they 
have gained strong footholds and they have to be destroyed. 
Correct? Do you really think we can try to contain the ISIS 
caliphate and not have their message spread and grow? I would 
imagine you have seen the videos of them training the next 
generation. Every day that goes by, they are training more 
young people. They are starting to stream in using the migrant 
flow into Europe. This is a growing threat. Is it not?
    Mr. Olsen. I do think it is growing in the sense that as 
the numbers have increased, particularly the problem is a 
threat to the West, the problem of foreign fighters streaming 
into Syria and Iraq, 40,000 total foreign fighters from around 
the world, over 6,000 Europeans. You know, that is a real 
threat. And that was something we saw when I was in government 
2 years ago. We are now seeing the sort of fruits of that 
movement with the attacks in Brussels and France as individuals 
return from having traveled to Syria. I think from that 
perspective it is a growing problem.
    And I think I would also add a point to agree with Graeme 
Wood that even as we constrain and have success in limiting 
ISIS on the battlefield in Syria and Iraq, you may actually see 
more of the types of attacks like we see in Brussels and Paris. 
In other words, those are very hard to stop, and ISIS, in an 
effort to remain relevant, to dominate the news cycle, as Mr. 
Wood said, may actually increase its effort to carry out those 
type of attacks.
    Senator Johnson. You talked about the need to surge our 
intelligence capabilities. We have not been capturing and 
detaining ISIS operatives and then interviewing them over long 
periods of time. When I was down in Guantanamo Bay, I talked to 
those interviewers. That is how you actually gain that human 
intelligence, by capturing these operatives and then talking to 
them over a long period of time--poking holes in their 
testimony to find the discrepancies with testimony of fellow 
operatives.
    How harmful is the fact that we really have reduced to 
almost the point of eliminating our capturing, detaining, and 
long-term interviewing of terrorist operatives?
    Mr. Olsen. We have had some success in terms of doing 
exactly that, detaining and interrogating ISIS members in Iraq. 
So there has been some----
    Senator Johnson. We were able to foil some potentially 
chemical attacks. Correct?
    Mr. Olsen. Exactly, Senator. So there has been some 
success. It has not occurred certainly on the scale that we 
saw, for example, in Afghanistan in Bagram. It is an important 
part of any effort.
    Senator Johnson. Dr. Levitt, would you like to comment on 
my questions?
    Dr. Levitt. Just on the first one, I would say that we need 
to recognize there is a big piece of glory in this for 
wannabes. And what you read from the case in Milwaukee is not 
unique. Consider the case of just after the November attacks in 
Paris. Belgian police intercepted a phone call to Brussels from 
a Syrian and overheard a Belgian militant inquiring about his 
friend Bilal Hadfi who had been one of the suicide bombers in 
Paris. The militant asks what his friends were saying about 
Bilal back in, quote, the sector, meaning Molenbeek. The quote. 
He asked, are they talking about him? Are they praising him? 
Are they saying he was a lion? In other words, his main issue 
is the personal glory about all of this and this inspiring 
piece of it.
    I do think that as we have greater success, we should 
expect that our adversary is going to lash out where and when 
it can. It wants to show relevance, and it does want to get on 
the news. That does not mean we should not try and succeed. It 
means we should anticipate that those things will happen.
    Because the Islamic State controls territory and because 
there is nothing really good to go in behind the Islamic State, 
maybe not in Iraq, certainly not in Syria, it is not just so 
easy as how quickly can we defeat them. It is how quickly can 
we defeat them and have something else that will take that 
space and not do the same all over again. And that makes this 
much more difficult.
    Senator Johnson. Listen, I understand the challenge, but 
the bottom line is as long as that caliphate exists, as long as 
they control territory, from my standpoint the risk is going to 
continue to grow.
    Mr. Chairman.
    The Chairman. Thank you.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Thank you all for your testimony. I was catching it in the 
midst of meetings in my office.
    I listened to your testimony here, and I had the privilege 
before in your official role, Mr. Olsen, and Dr. Levitt, 
gracious enough to come by my office and talk about this 
subject.
    I get the sense that we are in this for a very long time. 
Is that a pessimistic view or is it a realistic view?
    Mr. Olsen. I certainly think it is a realistic view. How 
long that is is hard to gauge, but it certainly is a matter of 
years I would say at this point.
    Senator Menendez. Do you agree with that, Dr. Levitt?
    Dr. Levitt. I agree with it by default. As we just 
discussed, this is a clear and immediate threat, but there also 
is the problem of not knowing what is going to come in behind 
it in the near term.
    I can tell you, though, as I go around and I talk to 
counterterrorism officials and officials in the military, they 
are frustrated because there is not a whole lot of direction. I 
get asked all the time by people in government now as someone 
out of government what is our strategy and what is our goal. 
Tell me and I will get us there. If they do not know what it 
is, that means it is not being communicated well enough from 
the top, and we need to do that. I think, therefore, we are in 
this for the long haul by default. There has to be a way to 
have a real strategy to defeat the Islamic State and plan for 
what can come in behind it without this necessarily being 
multi-generational.
    Senator Menendez. So your testimony, Mr. Olsen, was that 
this is a real threat to the United States, one that--I do not 
want to say that the President downplayed it in his most recent 
interview, but he characterized it a little different than the 
sense I get of the Islamic State. And I understand wanting to 
continue on with our lives so that terrorists do not ultimately 
win. But I listened to it and I get concerned about the ability 
of the Islamic State to have command and control centers that, 
at the end of the day, allow them to go far beyond all the 
different places in which they are presently located.
    So if those, as you say, Dr. Levitt, that are in charge of 
defending the United States feel that there is no specific 
strategy to achieve the goal, what are some of the immediate 
things that we need to do certainly to not allow the Islamic 
State to have the capacity for command and control to direct 
attacks against the United States, one, and our allies?
    And two, there is obviously a longer-term effort here 
because if Mr. Wood's statements about the depth of ISIL's 
support is the reality, we have a challenge to deal with that 
that is on a longer scale to defeat the ideology and to work on 
its role in the mediums that we have.
    What are some of the things we should be doing immediately 
as a strategy to at least disrupt their command and control 
elements? And secondly, what must we commit ourselves to in 
order to work against their ideology? And that has a series of 
elements, I would assume, in addition to raising the standard 
of people's lives in these countries who obviously feel that 
they have no real hope for the future and that they are 
desperate economically and then they turn to a place where they 
in fact have their challenges converted into the belief that 
dying is more glorifying than living and that there is a better 
life beyond by virtue of martyrdom.
    So can you deal with what we should be doing in the short 
term that we are not to disrupt command and control and their 
ability to have attacks against the United States and our 
allies? And what is the longer-range challenge that we have 
here? I would invite anyone to answer.
    Mr. Olsen. I will jump in on that because it is obviously a 
very large and well-framed question because what you have put 
out, Senator, is there are things that we can do immediately 
and in the short term that we are doing at a tactical level to 
disrupt their command and control. One is maintaining the 
military pressure, accelerating that effort in Syria and Iraq 
to help put pressure on their ability to plan and plot with 
impunity in a sanctuary they have created. That includes the 
use of special forces to go after their leaders and high-value 
operatives.
    We also, as I mentioned, need to increase our intelligence 
capabilities. We have lost a lot of our intelligence 
capabilities because essentially the game plan was given away 
to how we collect intelligence. And that needs to be rebuilt. 
So we need to improve our intelligence.
    And then we need to, again in the shorter term, work with 
our European partners to improve their ability to share the 
information, often information that we collect and then share 
with Europe. That needs to get shared more effectively within 
Europe. That is the shorter term.
    Longer term, in answer to your question, there is the issue 
of the ideology, and that is where this becomes not just a 
short-term problem but a very long-term problem as we go after 
addressing and countering the ideology that fuels the violence. 
That is a difficult effort. It is hard to measure success, but 
it is one that I think we need to step up our efforts in order 
to match the nature of the threat.
    And then finally, the point I would make--and you touched 
on this. We need to address the underlying and root causes of 
extremism and terrorism, whether it is civil unrest, lack of 
border controls, lack of socioeconomic opportunity in large 
parts of the Middle East and North Africa.
    Senator Menendez. Dr. Levitt?
    Dr. Levitt. Thank you for the question. You hit the nail on 
the head on the biggest problem we are facing right now.
    In the immediate, the first thing that had to happen and 
did happen was a change in the rules of engagement. And so we 
have seen the ability to now target oil. We have seen the 
ability to target where they are storing their cash, the oil 
tanker trucks. We are seeing a significant change since 
December in the battlefield approach.
    We are also seeing clearly the need to not only improve our 
ability to collect, as you heard, but also not only our ability 
to share but the ability of our partners to receive and share. 
And the Europeans have a real problem here. I will just give 
you one example.
    Europol's focal point traveler database has recorded only 
2,786 verified foreign terrorist fighters despite the fact that 
we know that it is well upwards of 5,000, probably closer to 
6,000 EU citizens or residents of the EU who travel to Syria 
and Iraq and more recently Libya to fight. But what is worse is 
that of those 2,786 verified cases, over 90 percent of those 
reports come from only five EU countries.
    It used to be a point, when I was at the desk for intel at 
Treasury, that we would be asking the Europeans to partner with 
us more on the Terror Finance Tracking Program. If you look at 
the European Union counterterrorism coordinator's latest 
report, it is not us. It is him. He is calling on European 
member states to remove certain cutouts. For example, if you 
make a euro denominated payment from one person within the EU 
to someone else within the EU, that is not covered within the 
program. America is not asking for that change. The EU 
counterterrorism coordinator is asking for that change. There 
are lots of things that have to change there.
    But in the long term, absolutely right. The military fight 
is difficult because they control territory. The ideology is 
something we are going to be dealing with for a very long time. 
And I think it is two distinct things here.
    One is in the region. You have a lost generation in the 
extreme. Young children today, hostage today within areas under 
Islamic State control, are brought up to be completely 
desensitized to violence. People in camps elsewhere in the 
Middle East do not have a regular roof over their heads, do not 
have regular access to education. That is going to be a 
generational challenge.
    And then more generally, given social media and the ability 
to share ideas very widely, we have seen how these dangerous 
ideas can cross borders that do not exist on the Internet and 
their ability to resonate with people who are facing completely 
different issues in, say, Molenbeek in Brussels or elsewhere. 
And the fact that those ideas from the Middle East are 
resonating with people from Molenbeek who are third or fourth 
generation Belgian citizens--one of them said to me we feel 
more Belgian than most Belgians because most Belgians who have 
been here for hundreds of years think they are Walloon or 
Flemish. We just know Belgium. That this is what is resonating 
with them is a real issue we will be dealing with for a long 
time.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    As my first interjection, I hear sometimes from the foreign 
policy establishment, if you will, that the only thing we need 
to do here is develop a strategy like we did for the Soviet 
Union during the nuclear standoff. This strategy would go from 
President to President and from Congress to Congress.. And I 
listen to these issues. We see the issues when we travel to the 
Middle East. I look at the challenges we face right now in the 
Middle East and compare them to the bipolar nuclear struggle 
with the Soviet Union and I see the Soviet Union issue as 
almost being Ned in the First Reader. I mean, it was very 
simple relative to the issues that we have today. So I 
sometimes become upset when I hear people say, well, you guys 
just need to develop a policy like we developed for the Soviet 
Union that can go from generation to generation, from decade to 
decade.
    For instance, someone might say we need to go after an ISIS 
safe haven, but we have to wait until someone is there to come 
behind it. We also have the poverty issues. You know, Egypt has 
90 million people and 2.5 million are born each year.700,000 
new jobs need to be created each year just to take care of 
that. They have terrorism and have seen a downturn in tourism. 
They have a health care system that does not work. Each of the 
countries has similar problems, some worse than others. 
Sometimes we have a leader that we can deal with and sometimes 
we have a terrible leader that we cannot deal with.
    So if I were going to ask you to step back and lay out the 
components of a strategy to deal with ISIS that could go from 
administration to administration and from Congress to Congress, 
what would the elements of that be?
    Mr. Olsen. If I can begin, Chairman, by agreeing with your 
observation about the complexity of the current challenge 
compared to perhaps the Cold War. And while I do think the 
current challenge is more complex, obviously, I think it is 
important to point out we do not face the sort of existential 
threat that we did during the Cold War. And I think those are 
ways to think about this.
    The Chairman. Well, in some ways it makes it more 
difficult.
    Mr. Olsen. That is right.
    The Chairman. Because the American people today, while they 
are fearful, do not feel an existential threat. There are 
tremendous investments that we need to make here, but when you 
look at the Middle East issue, you are talking about 
investments, are you not? I mean, you are talking about poverty 
and lots of other things. So, I am sorry to interject again--
but go ahead and lay out the strategy that is going to carry us 
decade to decade.
    Mr. Olsen. Well, very broadly I would think of it in three 
ways. One is the denial of a safe haven to ISIS and other 
groups, and that means a military commitment with the Iraqis 
and in Syria. It means working with governments, coalition 
partners to build an ability to hold territory on the ground. 
So one big bucket of effort has to be denying safe haven, and 
that is, at least with respect to ISIS, a significant military 
effort.
    The second bucket I think is defeating the infrastructure, 
going after the terrorist infrastructure. That means the 
movement of people, money, arms, and ideas. So going after 
ISIS--its infrastructure, which includes all of those things, 
people, money, weapons, and ideas, its ability to carry out its 
propaganda campaign.
    And then the third large category is hardening our own 
defenses. That is intelligence sharing. It is homeland 
security. It is working with our allies to build up our ability 
to disrupt attacks, to stop the movement of people, to 
prosecute individuals who commit crimes by seeking to provide 
material support to terrorism, for example.
    So very broadly speaking, those three categories. The only 
thing I left out was in that third category I would add in the 
countering violent extremism effort that Dr. Levitt talked 
about as well.
    The Chairman. So none of that addressed the underlying 
issues that are driving the whole desire of young people to be 
a part of this right? I mean, you are admitting that.
    Mr. Olsen. You are right. It is absolutely a fair point, 
Chairman. You know, in some ways that is such a broad effort. 
It is an essential part of the effort. So, yes, I should have 
mentioned that, but that is obviously a very difficult and 
broad effort to address. I mentioned earlier the underlying and 
root causes of terrorism. Those are political, socioeconomic, 
educational.
    The Chairman. Do you want to add to that, or can we move to 
the next question?
    Dr. Levitt. If I may just in brief because almost all my 
points just checked off. I just checked them off. But I would 
add local governance. Local governance, whether it is in Iraq 
or it is in Brussels. If we can work with allies, target our 
dollars, create conditions where local governance is put in 
place, it goes the longest way for people being able to live 
their lives.
    And the second thing is the one thing none of us have 
mentioned today--and mea culpa. I have not either--is Syria. We 
are not just dealing with the Islamic State. We are dealing 
with Syria. And I happen to believe that Assad is at least a 
big a problem as the Islamic State is. According to the U.N., 
there is a 9 to 1 ratio, the number of people the Assad regime 
has killed compared to the Islamic State. And the Islamic State 
is only here today because of the vacuum that was created by 
Assad. And I think that we bear some responsibility for that. 
We were not proactive enough. We did not do what we could have 
when we could have, and Syria much, much worse. There are 
mistakes of omission that were created, and I would say looking 
forward across administrations, we need to be careful not only 
to be wary of what we do, but of what we do not do.
    The Chairman. Mr. Wood, do you want to add to that?
    Mr. Wood. Yes. I would echo both comments already. I would 
add one more thing, which is a key portion of ISIS's strategy 
right now is regional instability, that is, in the Middle East, 
countries like Saudi Arabia, like Egypt particularly in the 
Sinai. And we need to keep a very close eye on these aspects. 
Specifically ISIS has taken the tactic of having a series of 
terrorist attacks in the Kingdom of Saudi Arabia, in Egypt and 
has attempted to demonstrate that the ability to maintain 
stability, to stave off chaos that is really the main value 
proposition of these governments for their people is no longer 
something that they can promise. These are local dynamics that 
need to be addressed as a key portion of an anti-ISIL strategy.
    The Chairman. Well, if I could, to summarize in terms of 
the denial of a safe haven--you are talking about a whole 
different kind of effort than has been taking place. I mean, I 
think people acknowledge that. It is not a plus or minus--I am 
just saying you are talking about a whole different kind of 
effort.
    In regards to the infrastructure piece, I do think that 
there are some efforts underway to deal with the nine different 
efforts, if you will, that are necessary there.
    In terms of hardening defenses, obviously, that's a no-
brainer.
    But the fact is that when you start dealing with the local 
issues, now you are starting to deal with the core of the 
problem. And I just want to say again you are talking about a 
massive, long-term problem. You said years--I think years is a 
tremendous understatement. And I think that the resources and 
the efforts dealing with rulers that candidly sometimes are 
good, sometimes are bad, changes overnight sometimes. It is a 
pretty daunting task that we have to figure out a way to deal 
with.
    But again, to try to cause something to occur between a 
Democratic administration or a Republican administration, with 
different parties in control in Congress, you are talking about 
something that deserves our effort but is very daunting, 
especially with players changing as rapidly as they do.
    With that, Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    Mr. Wood, it is good to see you again. Thanks for coming to 
Colorado for the counterterrorism education learning laboratory 
event a couple months ago. So I really appreciate your presence 
there. Thank you.
    To the other witnesses as well, thank you all for your 
participation today.
    I wanted to follow up on the conversation you had a little 
bit with Libya a couple of minutes ago. To Senator Cardin, I 
may ask him if I am accurately phrasing this question. Several 
on the committee had an opportunity to visit with leadership in 
Saudi Arabia. When the question of Libya was asked, I believe 
the response from one of the key leaders, top leaders in Saudi 
Arabia was that they believe Libya will make Syria look like--
and I quote--a piece of cake. And I just was wondering if you 
would agree with that assessment or not, and if you agree, are 
we adequately focusing our resources, attention, and planning 
on Libya?
    Mr. Olsen. That is, obviously, a quite pessimistic 
perspective.
    You know, there is an effort underway to reconstitute the 
political leadership in Libya. That, to our conversation just a 
few minutes ago with the chairman, is critical to addressing 
the longer-term problem in Libya, the governance issues, the 
lack of security. My sense is the last few years have been 
extremely difficult in Libya, and the rise of extremist 
groups--and in particular, ISIS does pose a significant threat 
I think second only to the threat that ISIS poses from its safe 
haven in Syria and Iraq. I think what we are going to need to 
do is be able to look toward in the near term targeted efforts 
in Libya to go after ISIS leaders, particularly when we have 
intelligence about threats emanating from its stronghold in 
Sirte, but also over the longer term working with whatever sort 
of political regime emerges from the process there.
    Senator Gardner. Dr. Levitt?
    Dr. Levitt. Yes, I would just concur and say I think the 
main difference--and it may be optimistic to put it this way--
is that there are people who are positive about the prospects 
of there being something else to come in behind what was in 
Libya as a central government. And if there can be some type of 
central government, that it then could be the backbone, with 
international support, to take on the three distinct Islamic 
State elements around the country. I am not a Libya expert. I 
cannot tell you whether or not that is accurate or not, but 
that makes it very, very different than Syria where there is no 
prospect for that at all.
    Senator Gardner. Mr. Wood?
    Mr. Wood. One thing I would add is in some of my reporting 
in Nigeria, Libya has been mentioned frequently actually as a 
kind of hub of control, an ideological hub, a place where 
fighters for Boko Haram could do go for a kind of ideological 
training or indoctrination. So I think one of the important 
elements that we need to understand about the danger of the 
developing situation there is the connection of Libya to the 
so-called West African province of ISIS and the larger problem 
of the Maghreb, which the connections are still poorly tracked.
    Senator Gardner. Thank you.
    Turning to the western hemisphere now, in the 2016 
Worldwide Threat Assessment, the Director of National 
Intelligence stated that more than 36,500 foreign fighters--we 
know these numbers--including at least 6,600 from Western 
countries, have traveled to Syria from more than 100 countries 
since the conflict began. Director Comey at the FBI has said a 
total of over 250 Americans have traveled or attempted to 
travel to Syria as of September 2015, 150 being successful. We 
have learned also from private sources that an additional 76 
fighters traveled from South America. And according to reports 
that we have all seen, on March 9 the man who identified 
himself as an ISIS follower, murdered a well known Jewish 
merchant in Uruguay.
    Do any of you see ISIS or other Islamic terrorist networks 
growing in presence in our own hemisphere? Mr. Wood?
    Mr. Wood. Up till now, the ISIS supporters whose individual 
cases I have looked at have been clearly directing their 
efforts toward getting to Syria or have already got there. That 
certainly does not mean that there are not cells in the United 
States, that there is not development of plans. I would be 
shocked if that is not happening. But the specific traces of it 
are not things that have been on my radar.
    Senator Gardner. And I guess I recognize--and we have all 
talked about the United States and possibilities of targeting 
the United States and the cells and the radicalization. But 
what about South America? What about Central America, Mexico? 
What are we seeing? What do you see?
    Mr. Wood. Again, I have seen individual cases of Peruvians 
or Chileans who have made it to ISIS territory. And they are 
fascinating examples of a kind of current case of 
globalization. A Peruvian who decides that Syria is his 
destiny. But the actual development of attacks and cells I have 
not observed.
    Senator Gardner. Dr. Levitt?
    Dr. Levitt. It has been actually impressive how small the 
numbers have been so far from South America, South and Central 
America. I am told there are a couple of places where I do not 
know if you would call them hotspots yet because it is still 
small numbers, but more than onesies and twosies. But my 
understanding is people are watching this very, very closely 
and not just local authorities but, obviously, American 
authorities too for obvious reasons. So I do not want to make 
it sound like we are not interested, we are not concerned, but 
it is telling that the numbers have been as small as they have 
been. And I have heard of no kind of networks or cells and such 
that we could describe that we know about. Of course, you do 
not know what you do not know, but the numbers have been very 
small.
    Senator Gardner. Mr. Olsen, I want to follow up with you 
with something you said earlier. I think in November I had the 
opportunity to travel to Mexico to visit with the foreign 
minister in Mexico City, to visit with some of their defense 
experts. And we talked a lot about this very question and what 
was happening in Mexico and their neighbors to the south, and 
the danger that they recognize somebody coming either back to 
Mexico or Central America who traveled to Syria and then came 
back or perhaps somebody who is trying to get in through Mexico 
and our southern border. They understand the concern and they 
understand the need and the need to cooperate with the United 
States and the western hemisphere.
    You talked about how ISIS has created this sort of external 
operations command. I am sorry. This was Dr. Levitt. Not you. I 
am sorry, Mr. Olsen. Dr. Levitt, you said this, that 
information sharing within the European Union does not reflect 
their threat. I believe that was you who said that. Do we have 
the kind of information and communication network that we need 
in the western hemisphere to deal with a possibility of a 
threat in the future?
    Dr. Levitt. Matt is much more capable to speak to this than 
I am because he helped build it, but I do not mind tooting his 
horn.
    Nothing is perfect. But we have since 9/11 done what the 
Europeans have not done with joint terrorist task forces and 
infusion centers and very close and intimate outreach to our 
neighbors and people who do not just border on our country to 
build the kind of network that shares information up and down 
pipelines and avoids stovepiping. You will never have complete 
elimination of stovepiping, but this is something that we have 
invested a tremendous amount of time and effort and money, 
frankly, into building. And you do have much, much different 
sharing between local, State, even things like tribal and 
Federal authorities in this country and our outreach with DHS 
and other offices abroad than most of our partners do.
    I have some very good friends who head our DHS offices in 
places abroad, and one of the things they do is try and build 
that relationship not only for our benefit but help build 
similar type of connective tissue within our allies' countries. 
That is to their benefit, and by extension to ours.
    Senator Gardner. Thank you.
    And Mr. Olsen or Mr. Wood, if you would like to add to 
that. Otherwise I have run out of time.
    Mr. Olsen. I would just very much agree with Dr. Levitt in 
terms of the efforts in the United States in terms of both 
changing laws, changing policies, and the level of resources 
put into the overall enterprise of sharing intelligence, 
sharing law enforcement information, both horizontally among 
Federal agencies but also vertically between Federal and State 
and local agencies.
    Senator Gardner. Mr. Chairman, thanks.
    The Chairman. Thank you.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you all very much for being here.
    I want to follow up on the information sharing, but before 
I do, I want to just pick up on the line of discussion that 
Senator Corker raised because it struck me, Mr. Olsen, as you 
were talking about what is in a strategy to fight ISIS, that 
there were military components of virtually everything you 
suggested. And yet, as we have talked about how do we get to 
the core of this problem, it is governance, it is economic and 
social concerns. And we have been much more successful in 
America when we have been dealing with the military aspects 
than we have been with nation building. And so it seems to me 
this is going to continue to be an impediment, as we think 
about how to deal with this, to actually get at the root 
causes.
    And also, it is going to be harder to get public support to 
deal with the economic, social, governance concerns, the nation 
building aspects of what we need to do than it is to get 
support for the military concerns. So it kind of puts us in a 
Catch 22 situation in terms of how to get at the fundamental 
issues that you are raising about ISIS. I do not know that I 
need anybody to respond to that unless someone would like to 
and you think there is a hole in my reasoning there.
    Mr. Olsen. If I could just say almost as a point of 
clarification, first of all, I agree with you wholeheartedly, 
Senator. In my response I think back to Chairman Corker's 
point, I had in mind sort of the strategy with regard to ISIS 
in terms of my focus on the military effort to deny safe haven. 
But when you look at other countries, obviously the denial of 
safe haven to terrorist groups, whether it is ISIS, Al Qaeda, 
or affiliated groups, that really is a political, social, 
diplomatic effort.
    So when you look at countries across North Africa from the 
west in Nigeria through Libya, Tunisia, Egypt, into the Middle 
East, places like Yemen, each of these places we have to engage 
to build up the capacity of those countries to support 
political transitions that are appropriate for the countries, 
that would create allies for us. That is a much harder, as you 
pointed out in your question, and longer-term effort, but one 
that is certainly at least as indispensable as any military 
effort, which just happens to be where we find ourselves with 
respect to ISIS in Iraq and Syria.
    Senator Shaheen. So let me follow up on the question about 
information sharing because one of the points you made, Mr. 
Olsen--and I think both of the others of you have made it as 
well--is that one of the challenges in Europe is the 
information sharing and getting up to speed today in Europe to 
where we were back after September 11.
    So what are the impediments to doing that and what more 
should we be doing in the United States to support the European 
efforts? For whoever would like to answer that.
    Dr. Levitt. Thank you for both your questions.
    If I could just quickly tag onto the first one, I do not 
think we should be doing the nation building thing. We do not 
do it well. You are absolutely right. But we need to spend a 
lot more time and effort with our diplomacy to convince 
governments, allies, that it is not just as a favor to us but 
it is in their interests to put in place good governance. That 
is very, very hard for some countries where me remaining in 
power as an individual is more important than anything else, 
but that is to be a huge priority in a way that it is not yet.
    With our European allies, there are several legitimate 
issues. They have a different sense of privacy than we do. I do 
not minimize it, or make light of it at all. But it all comes 
down to balance. People have a right to privacy. People have a 
right to get on the metro going to work in downtown Brussels 
and not be blown up. And staging at each metro stop soldiers in 
camo with automatic weapons across their chests, as they did--I 
was at that metro stop six times the week before--is not going 
to stop someone from getting on with a suicide bomb.
    The other thing is they have concerns from World War II and 
elsewhere of a history of the overstep of intelligence. So, 
again, what kind of assurances and checks and balances do you 
need to put in place to make people feel comfortable?
    And finally, the European Union is more European than a 
union in many ways. It is primarily an economic union, and in 
that it has been very successful. But the very things that make 
it a successful economic union create vulnerabilities from a 
security standpoint, and there is not as much of an interest, 
because of privacy issues and tensions between some governments 
and because of business issues, legitimate economic issues, to 
put things in place.
    So I think this will be, I believe, a wakeup call, at least 
for some. The fact that Turkey had informed not just the 
Netherlands but Belgium as well of one of the people who was 
later an attacker and this information was not shared. The fact 
that there is the SS system at the borders, but it turns out 
that a whole host of EU countries are not connected to it or do 
not input any information into it. I think we are going to see 
some changes there.
    Senator Shaheen. You have described the problem very well. 
It is still not clear to me exactly what we need to do.
    But I want to go on to another question because one of the 
things that we are currently doing in the State Department is 
setting up a new global engagement center to counter violent 
extremism. And I was in Brussels for the Brussels Forum and 
heard a variety of experts talking about countering violent 
extremism and what we need to do to address ISIL. And they 
were, I think, pretty united in suggesting that that was a 
wasted effort, that what we need to do is not something that we 
can do through our State Department or really effectively in 
terms of social media and how we deal with that aspect of 
countering violent extremism through a bureaucratic agency. And 
I wanted to get the thoughts of each of you on that issue. Dr. 
Levitt, you are obviously wanting to respond to that because 
you reacted there.
    Dr. Levitt. I just realized that my button was still on. 
But I do want to answer, and I thank you for the question.
    At The Washington Institute, we are doing a very large 
study on all things CVE right now, and this is one of them.
    There are a lot of jokes that have been made about the 
global engagement center, including its name. Others in the 
State Department say this is not what all of us do. But the 
fact is I do think there is good reason to have moved from 
where they were at the CSCC to this new idea. The idea, whether 
it will work or not, I think is premature to say. And they are 
being quite quiet I think until they get some wins under the 
belt, and that is maybe not a bad idea.
    But the whole idea, if it will work, is for government to 
figure out how it can partner in this space with others. We are 
not a good voice on this at all. Who can we partner with? In 
what ways can we support them? It is not an American government 
response, but with others in the region, Arab voices, Muslim 
voices, on issues that we as governments should not be 
commenting on, certainly are not very good on, religious 
narratives, for example, and not just counter narratives, which 
is countering a narrative that they are providing but providing 
our own narratives. So who can we partner with? Who are the 
others? And I think that is the main thing they are going to 
have to be judged on, what partners do they partner with, how 
successful are they, what kind of metrics do they have in 
place. I do not think they have the answers to that yet because 
this is also new. But to their credit, these are the things 
they are talking about.
    Senator Shaheen. And can I ask if either Mr. Wood or Mr. 
Olsen would like to respond to that as well?
    Mr. Wood. I would agree that a large portion of the CVE 
effort has been wasted. And it is very, very easy to see why 
that might be the case. Any conversation with someone who is at 
all ISIL inclined will demonstrate the speed with which they 
have been taught to destroy the credibility of anyone who is 
associated with not just the United States but any number of 
other enemies of the group, including clerical enemies of the 
group, including other governments. As a part of their 
indoctrination, they are taught how to find out the ways to 
exploit weaknesses, to observe them, and to convince others of 
the same.
    So what I think we need to understand from that is, first 
of all, that there is this kiss of death problem. Anything that 
we touch does have a tendency to be discredited by our very 
presence in the room. But that is not entirely something that 
means that the CVE efforts in general should be pushed aside.
    The efforts of non-affiliated, non-U.S. Government 
affiliates, non-clergy affiliated people to ridicule ISIS, to 
change its perception as a glorious movement to join to a 
ridiculous one or to one that is essentially throwing one's 
life away rather than achieving glory--that kind of effort is 
being done without our help. And we need to make sure that if 
we try to help it, that we do not destroy it.
    Senator Shaheen. Thank you.
    Thank you. My time is out.
    The Chairman. Senator Flake?
    Senator Flake. Thank you, Mr. Chairman.
    I apologize if I am plowing old ground here.
    Let me talk about Somalia for a minute. The ``Wall Street 
Journal'' had a piece a while ago talking about terror 
financing and the rules that we have which have caused a lot of 
banks to just simply pull out of certain markets and not engage 
in money transfers.
    The Somali diaspora sends back about $1.3 billion. It is 
between 25 and 45 percent of the entire economy there.
    Has that been a net plus, this concern about terror 
financing, or has it simply driven terror financing underground 
in ways that are harder to track and more difficult to combat? 
Mr. Wood, do you want to address that at all?
    Mr. Wood. I cannot speak to the success of any particular 
efforts, certainly not in the case of Somalia.
    I will say that with ISIL, one of the great developments of 
ISIL is a kind of self-financing model that they have had, that 
is, the ability to ensure revenue through taxation, theft, 
confiscation within its own territory. So the efforts to dry up 
financing certainly should be pursued, but they are not going 
to get us to the finish line.
    Senator Flake. Any other thoughts?
    Dr. Levitt. Yes, about Somalia. I will leave the Islamic 
State issue aside.
    I would just argue there that it is a different toolkit. We 
actually have had great success especially recently with the 
changed rules of engagement on the Islamic State. We can have 
more success. It is just going to be a different toolkit than 
we saw with yesterday's Al Qaeda.
    The issue with Somalia is a really important one. It is not 
in our interest to deny the average person the ability to send 
money home to their families. To the contrary. When you think 
about the larger radicalization issues, that can be a 
contributor.
    On the flip side, we do have to be very, very careful about 
preventing different types of financial instruments from being 
vulnerable to abuse, certainly large-scale abuse. And that was 
the case with the remittances going back to Somalia. And what 
then happened was a dynamic within the private sector where it 
simply was not worth the risk to western banks to take on that 
type of business.
    It comes down to the questions we have already about 
privacy Europe. How do we balance the risk? We have two 
competing sets of interests here. They are both legitimate. We 
have to stop terror financing going to Somalia. It was 
happening. It is a real issue. How do we also enable these 
remittances to go? Well, how can you change the risk calculus? 
How do you overlay more risk analysis into this? This is 
something that the terror finance community is looking into 
very, very closely.
    The bigger issue is this humanitarian one. It is not that 
the terror finance activity is then being driven underground 
simply because in a place like Somalia, there is not much 
farther underground it can go. They cannot use banks. If they 
cannot use remittances, they cannot send the money, but neither 
can good people who are just trying to send money home. My 
concern is from a no less legitimate humanitarian one, and we 
need to be able to balance these concerns. There are efforts 
trying to do that right now.
    Senator Flake. Thank you.
    Turn to Libya for a minute. President Obama in an interview 
last week identified probably the biggest regret he has had of 
his presidency was not to adequately plan for the aftermath in 
Libya. We are seeing, obviously, links to al Shabaab and to 
Boko Haram. To what extent is our focus on trying to lessen the 
appeal with those groups simply overwhelmed by what is going on 
in Libya now? There are 6,000 fighters we believe now. Where 
should our focus in Africa be? Is the focus in sub-Saharan 
Africa? And for these countries misplaced as long as we let 
Libya fester as it is, where should our focus be?
    Anybody want to take that? Mr. Wood, go ahead. I know we 
have to focus everywhere, but I mean, is it futile to look at 
these movements in sub-Saharan Africa without addressing Libya?
    Mr. Wood. I think it is very important to start with Libya. 
So the efforts against Boko Haram, undertaken by the Nigerian 
Government, have shown some positive results so far.
    I think that the area that has the greatest potential to 
metastasize, though, is probably Libya, moving in a western 
direction from there. I tend to think that there are simply 
fewer people who are directing their attention toward Libya 
right now than there are in the cases of other areas such as 
Nigeria and that our attention would be well spent there.
    Senator Flake. Thank you, Mr. Chairman.
    The Chairman. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair, and thanks for holding 
this hearing. It is very important testimony. I appreciate it.
    I have two thoughts as I listen to the testimony, one 
poetic and one prosaic. So Yates wrote a poem at the end of 
World War I looking at post-war Europe's second coming, and he 
basically described the situation as the best lack all 
conviction while the worst are full of passionate intensity.
    I think the worst are full of passionate intensity in a 
very sharp degree. And I think the question is whether the best 
have conviction. There is an unsteadiness and an uncertainty 
about strategy, about the message we communicate, not just the 
United States, but other nations too, not just the executive, 
but the legislative as well.
    Recently on the prosaic side, a senior American military 
leader said to me we have OPLANs but no strategy. And you each 
talked about strategic points, and the chair asked questions 
about that. Operations plans. You know, we got a plan on the 
shelf if Putin goes into Latvia or if Kim Jong Un does 
something about South Korea. But in terms of the strategy that 
puts it together, it is lacking right now.
    I have been pretty hard on this body, a body which I am 
part of, so it is a self-criticism as well, that we are 2 years 
into a war and we have not really had meaningful debate or vote 
about it. I just do not think that is the way it is supposed to 
be. And I think the debate that you have about an authorization 
for is how you just pepper an administration with questions 
about strategy, make them refine it and get better and better 
and better. Then you do the debate in front of the public so 
the public understands what the stakes are. But we are 2 years 
in with no real prospect of that happening.
    But I have also been pretty hard on the administration 
because they were not quick to send us an authorization for a 
war against ISIL. They have not really insisted on it, once 
they sent it to us in February of 2015.
    In addition, if you look more broadly about our military 
posture vis-a-vis non-state actors like ISIL, the President 
gave a speech now 3 years ago at the National Defense 
University saying that the 2001 authorization needed to be 
revised. Mr. Chair, we were part of a meeting that the White 
House convened I think 2 years ago that was a very productive 
bipartisan meeting where we talked, and we thought there was 
going to be some follow-up from the White House about what do 
we do with the sort of organic law of the country with respect 
to our strategy against non-state actors. And there has been 
zero follow-up from the White House at least that I have really 
participated in. And maybe others have had those conversations. 
And so I do think we are in a moment where we are dangerously 
free from any strategy.
    Some of the OPLANs are good and some of the things that we 
are doing are good. But I agree with you. And this is a 
Catholic theological point. You know, sins of omission can be 
as bad as sins of commission. And I think while the things we 
are doing are often pretty precise in the way they are 
calibrated, I think there are a lot of things we are not doing 
that are really a problem.
    The chair raised the question about is it fair to talk 
about strategy in this era when compared with the earlier era 
dealing with the Soviet Union Truman doctrine containment. And 
I think that is a fair question, and I like the Ned in the 
First Reader analogy.
    I think by the time we got into the 1960s or 1970s, the 
strategy was pretty clear, but maybe when it was being formed, 
it seemed as murky or challenging as it seems to us right now. 
Truman had to go to a Congress that he had just lost both 
houses in March of 1947 to ask for help to shore up the 
governments of Greece and Turkey from Soviet-backed communist 
internal parties. And he had just gotten drubbed in a 
congressional election, but he had to go and lay out a strategy 
with the risk that Congress would say we are not paying 
attention to you. And a bipartisan Congress heard him. They did 
not vote on the Truman doctrine.
    But then a whole series of things happened. The vote on aid 
to Greece and Turkey. Months later the Marshall commencement 
speech at Harvard where he laid out the guts of the Marshall 
Plan to rebuild European economies, even the economies of our 
enemies. There was a strategy that had its strengths and 
weaknesses, but it was articulated by a President. It 
engendered bipartisan support. It was comprehensive, not just 
military, but a whole range of things like Fulbright 
scholarships, Peace Corps. There were a whole series of non-
military aspects that developed over time, and it lasted for 
quite a while.
    So I would encourage--and I know the chair has done this 
before. We have had hearings to try to flush out what a 
strategy might look like. I do think the world is much more 
complicated in the array of powers than it was, but I also 
think that it probably looked pretty hard at the time in the 
1940s. So it is looking hard now. But I hope the administration 
will follow up on its pledge of May 2013 to engage us in this 
dialogue about how we look at the 9/11 authorization.
    A question to you about countering violent extremism here 
in this country. So we have already had a Virginian convicted 
high school kid, convicted in Federal court for trying to 
encourage people and facilitate, take people going to be 
foreign fighters in Syria. We have had other people arrested at 
the Richmond airport on their way circuitously to Syria.
    What are some strategies that we ought to use as we look to 
the success of CVE activities around the world or even anti-
gang strategies here in this country? What are some strategies 
we should be focusing on to be effective on CVE activities here 
at home?
    Mr. Olsen. I can start and pass it on to my colleagues 
here.
    You know, the strategy--and Dr. Levitt mentioned this. For 
the first time we now have a dedicated office. This is a 
bureaucratic answer in part but an important one, which is an 
office in the Department of Homeland Security, co-led by DHS 
and the Department of Justice, staffed by the FBI and the 
National Counterterrorism Center, for the first time an 
interagency group that is formalized, devoted to this question. 
So that is an important step, certainly not the fulfillment of 
the program.
    But in terms of strategies, as others have said, it is to 
empower others to understand the message that ISIS and other 
groups put out, that Al Qaeda puts out to understand that 
message and to give those groups the capacity to withstand that 
message. So it is training. It is building trust within Muslim 
American communities as I talked about so that they feel 
comfortable coming forward to law enforcement. The reality is 
that Muslim American communities, families, and neighborhoods 
are on the front lines of this effort, and they are going to be 
the first individuals to see the signs of a friend or a 
neighbor or a loved one becoming radicalized. And they are 
going to be in the first position to take steps to stop it. So 
to me, that is a critical part of the strategy.
    Dr. Levitt. I really appreciate the question. Thank you 
very much.
    The task force is the right step, but let me be clear. The 
task force is nascent. The decision to announce the formation 
of the task force was apparently rushed, I understand, so that 
it could have possibly made it into the State of the Union, but 
it did not make it into the State of the Union but is now 
officially created but not yet funded and also does not yet 
have all the legal authorities. The Secretary of Homeland 
Security spoke at a conference last week and said there are $10 
million for those programs. It might as well be zero. $10 
million is nothing. I am told more money is coming. That should 
have come with the announcement of the program, and it is 
suggesting that the intention is not sincere. And I believe it 
is, but we should not be politicizing this.
    I think personally the most important thing this task force 
can do is find partners in communities and work with them on 
things that are happening earlier in the process. Let us move 
the needle earlier in the process. By default, we have put CVE 
within law enforcement because we do not have, like the Brits 
do, a department of communities and local government. But this 
is not a law enforcement issue until a law has been broken. And 
so I started my career at FBI. It should not necessarily be 
FBI. It should be the local social workers or others who are 
doing interventions. We have to do off-ramping. It should not 
be the case--there will be cases where some teenager is going 
to end up doing something. He is going to have to be convicted 
and put in jail. There should be many, many more cases where we 
as government, we as local communities work together. We have 
got to work out the legal authorities, figure out how to do it, 
and partner with one another to walk that person off the ledge 
and off-ramp them.
    And I will just say maybe the most important thing we will 
say today is to underscore what Mr. Olsen just said, and that 
is that Muslim American communities play a huge role in this. 
They are being targeted by people who are radicalizing their 
children. Some of the discourse in our country right now is 
repulsive, and I know Muslim Americans who tell me that their 
children are having conversations in school, who of us will 
have to be deported. That is a painful and un-American 
situation that we should not tolerate and it should not be part 
of our discourse not because it undermines our ability to 
counter violent extremism, which it does, and not because it 
undermines our ability to do counterterrorism, which it does, 
but because it is repulsive.
    Senator Kaine. Can I ask, Mr. Wood, if you would just offer 
some thoughts?
    Mr. Wood. Sure.
    Senator Kaine. Thank you, Mr. Chair.
    Mr. Wood. I would echo that the thoughts already being 
aired. I would just say that, yes, the communities are by far 
the most likely to notice that their members are being 
radicalized. The families are most likely to realize this.
    The question I think that many of them face, though, is by 
turning in their kids, by turning in their friends, are they 
ruining their lives or are they saving their lives. And we want 
them to have no doubt about that. That might mean exercising 
some discretion in prosecution as well.
    The Chairman. If I could--it is my second interjection--and 
I do not think I have used up my full 7 minutes yet.
    We had a hearing last week just to talk about the debt 
issues that we have as a nation. I think that maybe this side 
of the aisle thought it was set up to criticize the 
administration, but not a word of that came out. It was really 
just to talk about debt and our lack of flexibility to solve 
our Nation's problems.
    As you talked about the Truman doctrine and containment and 
what went with that, there were significant investments to deal 
with that issue decade after decade after decade, culminating 
in the 1980s.
    The lack of process that we have here, the lack of 
prioritization, the fact that demographic changes are taking 
place and we are not dealing with those issues, the fact that 
our budget process is a total joke, puts us in a situation 
where we just respond to symptoms. There is no discussion of 
dealing with the root cause in a real way and what that would 
even mean.
    I just want to say again that our debt issue--knowing where 
our resource levels are--the fact that we know we are going to 
have deficits from now on based on just the way we are set up 
as a Nation really inhibits our ability to have a longer-term 
strategy to deal with this issue in an appropriate way. That is 
not a Republican statement, not a Democratic statement. 
Unfortunately, it is just an observation of our inability to 
prioritize and deal with things in an appropriate way.
    With that, Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Director Olsen, you know, after the attacks in Brussels, 
the State Department came out claiming that ISIS--it proved 
that ISIS was under pressure because of the arrests of the 
weekend, a couple of days before. ISIS also has been carrying 
out other sophisticated explosive attacks in the Sinai, 
threatened U.S. forces, continue to expand in Africa and a 
number of other locations, groups in Libya, Tunisia, Algeria. 
So ISIS may have been somewhat under pressure in that one area 
of the cell, if you will, in Brussels, but at operational 
strategic levels, they do not appear to be under pressure in my 
assessment.
    Do you think it is a correct assessment that ISIS is under 
pressure? One, how do you view that? And then you had in your 
written testimony mentioned if you had kind of the power to 
draw up your own strategy or add things onto the current 
strategy, could you maybe voice a little bit more about that?
    Mr. Olsen. Sure. Thank you very much for the question.
    Look, I think there was no doubt that ISIS is under some 
degree of pressure in its safe haven in terms of the military 
pressure brought to bear. Thousands of ISIS fighters have been 
killed by the coalition airstrikes. Some of the territory they 
gained in Syria and Iraq have been taken back.
    I think what we are seeing now is, as I said, the sort of 
fruits of the foreign fighter problem in terms of what is 
happening in Europe. So there is not real pressure in terms of 
bringing the extremist networks to ground, basically 
understanding where they are, prosecuting them, disrupting 
their activities. That pressure does not exist to the extent it 
needs to.
    I am not familiar exactly with what the State Department 
meant, but there has been a sense--and I mentioned this 
earlier--that I think they are opportunistic when they carry 
out attacks, and I do think there is an effort perhaps, because 
of the pressure in their safe haven, to maintain their 
relevance by provoking attacks and carrying out attacks in 
places like what we saw in Brussels, in Paris. But overall, 
because of their reach and because of the level of their 
propaganda, it is the case that we are going to continue to see 
a certain amount of directed attacks and then inspired attacks 
for the foreseeable future.
    Senator Barrasso. Dr. Levitt, do you have anything you want 
to add onto that in terms of under pressure?
    Dr. Levitt. Thank you for your question.
    I agree. I think the Islamic State is under more pressure 
than it had been, again especially since the rules of 
engagement were changed and we are seeing a real difference 
since December with 40 percent of territory pushed back, this 
ability to be able to--the inability to say that they are 
remaining and expanding, senior leadership strikes hitting them 
with frequency. But that does not mean that they will not be 
able to do horrific things within the region and abroad, A.
    B, I do not accept the argument that the reason we are 
seeing attacks is because they are under pressure. It is true 
that they appeared to have moved the plot in Brussels forward 
faster and in Brussels, as opposed to Paris, because the cell 
itself in the tactical sense was under pressure.
    I think it is clear from the Islamic State--again, their 
foreign terrorist fighter program for foreign-directed plots we 
now know goes back to late 2013 before Adnani's call for 
carrying out attacks in the West in response to Western 
airstrikes. Part of their whole world view is about a fight 
against the West. They do not just want to create their state 
and leave us alone and we will leave you alone. They want a 
fight in Dabiq. They want to provoke attacks and provoke a 
fight, and I think that was part of--if we cannot provoke you 
here, if you will not come and fight us here, we are going to 
do it there too.
    As we have success against them at home, yes, they will 
have still more reason to want to carry out attacks to show 
that they are not down for the count, that they are relevant, 
that they are on the front pages, and to provoke fear and 
literally terrorize. That does not mean it is the only or even 
the primary reason for those attacks.
    Senator Barrasso. Director Olsen, we are talking about 
terrorism wanting to take the attack elsewhere. With the result 
of this whole Iranian deal and the $100 billion of money going 
there, there has been a lot of concern expressed on this 
committee about some that money used for terrorism. And the 
topic for today's discussion includes transnational terrorism. 
Even Secretary Kerry said, yes, some of that money will likely 
be used for terrorism. Could you give us your assessment of 
that?
    Mr. Olsen. Absolutely. There is no doubt that Iran, in 
terms of sponsorship of terrorism, is the greatest state 
sponsor in the world. And so there is concern as we see their 
aggression in places like Yemen that there will be potentially 
an uptick in terms of terrorist attacks that are linked back to 
the Iranian regime. So I think speaking as a former government 
official, this was a concern that really anytime that we looked 
at the broader terrorism landscape, the concern about Iranian-
sponsored terrorist groups and acts of terror was always part 
of the discussion.
    Senator Barrasso. Earlier one of you testified to the fact 
that for every one person killed by ISIS, it is nine by Assad. 
And I wanted to just ask you about the Iranian influence now in 
arming the militias, providing the Revolutionary Guard forces 
to assist in fighting against ISIS, but at the same time, an 
Iran-backed Shia militia threatened to attack U.S. troops who 
are deployed in northern Iraq related to our fight against 
ISIS.
    Should we in the United States be concerned about the role, 
the influence the Iranian regime is having in operations 
specifically against ISIS, and is it just being used to help 
Assad even further? Whoever wants to take it.
    Dr. Levitt. I will just say when we talk about foreign 
terrorist fighters, we all hear Sunni foreign terrorist 
fighters. But there are about as many Shia foreign terrorist 
fighters in this fight, and they are being organized and 
directed by Iran. And I think it is not an exaggeration to say 
that Iran, de facto or de jure--it is creating the equivalent 
of a Shia foreign legion, which will be available to it for all 
kinds of nefarious activities moving forward.
    At the Washington Institute, we published a study on the 
Shia foreign fighters just in Syria, leaving the Iraq side out 
of it. And there is a huge issue here. Those Shia fighters are 
not blowing things up in Brussels right now. And so I 
understand, obviously, the focus on the Sunni side, but we are 
going to have to walk and chew gum because there is a spectrum 
of radical militant activity, and part of it is on the Shia 
side of the equation. And that is something we are going to be 
dealing with over the horizon. We need to keep an eye on that 
too.
    Senator Barrasso. Anything else you want to add on that?
    Mr. Wood. Yes. The local narrative of ISIL is to say that, 
Sunnis, you cannot go back. You cannot go back to Iraq. Iraq 
has gone over to the Shia. It has gone over to Iran. And 
insofar as the free reign of Iranian militias in Iraq 
demonstrates that, it is a serious problem when we try to think 
about how to put the pieces back together again.
    Senator Barrasso. Thank you, Mr. Chairman.
    The Chairman. Before going to Senator Markey, Director 
Olsen, since you have done what you have done for our country 
in a great way, how would you compare the differences between 
the Shia and the Sunni relative to the most recent response 
about their engagement in the world and some of the terrorist 
activities? From the standpoint of our Nation's national 
interests, talk about the differences there, if you would.
    Mr. Olsen. Sure. It is a really important question, 
Chairman.
    You know, I go back to something that Dr. Levitt said. 
Obviously, in this hearing, much of our focus is on the Sunni 
extremism problem. When we think of ISIS, obviously, that is 
rightly the focus. In terms of recent terrorist attacks, which 
also rightly draw our attention, those are Sunni extremism 
attacks, whether it is Brussels or Paris or San Bernardino.
    In terms of our national interests, particularly in the 
Middle East, the Shia problem perhaps does not get as much 
attention as it should, and that is because--you put it well, 
Matt, that we are seeing perhaps the sort of the ability of a 
state, Iran, to develop a cadre of Shia extremists that can 
carry out Iranian aggression in the region. And we are 
certainly seeing that in Syria, of course, but we are also 
seeing it in Yemen. So it perhaps does not grab the headlines 
in the way attacks, obviously, that occur in western Europe do, 
but it is one that is of important interest to the United 
States.
    The Chairman. Which would be of more concern to us relative 
to our own national interests over time?
    Mr. Olsen. I guess I would still rank Sunni extremism as 
more of a concern because of the threats, the urgency that the 
threats, whether it is Al Qaeda or ISIS, pose to the safety of 
Americans, whether here at home or in Europe or around the 
world. So I would still think--and I think this is probably 
reflected in my old agency, NCTC. The bulk of the effort 
analytically and in terms of collection is focused on the Sunni 
extremism problem.
    The Chairman. Dr. Levitt, I know you want to say something.
    Dr. Levitt. I completely agree. I give a lot of thought to 
this, and the way I put it is we have an urgent, immediate 
threat from Sunni extremism. I think overall the more strategic 
threat may be on the Shia side, and we have to be able to 
address them both, even if the strategic one is not right now 
the second as urgent in the sense of who is responsible for 
Brussels, who is responsible for Paris. It is an urgent, 
immediate threat. There is a strategic threat over this 
horizon, and we best pay attention to it now or we will be 
caught off guard tomorrow.
    The Chairman. Thank you.
    Senator Markey?
    Senator Markey. Thank you, Mr. Chairman, very much.
    Mr. Wood, I would like to ask you this question. It is 
about the role that the Sunnis are going to play in governing 
their own cities after there has been a clearing. So what 
happened about a couple months ago was the speaker of Iraq's 
parliament, Salim al-Jabouri, came in to visit us, and he said 
that Shia militia are still in Tikrit and that they hinder 
stabilization. And last week, he was quoted in the ``Wall 
Street Journal'' saying about Tikrit that displaced families 
have returned, but now there is a feeling that another 
occupation has begun. The Shia militias and armed groups are 
still there imposing their will. This is not what the Sunnis 
want.
    So you look at Ramadi and you look at Mosul. So trying to 
build a coalition to liberate Mosul when the Sunnis back in 
Tikrit are emailing their cousins saying this is not working. 
The Shia are still around us here. They are not letting this 
go. And to some extent, the same thing is true over in other 
parts of Iraq as well.
    So if you look at Ramadi and you look at Tikrit, and now 
you are trying to build a coalition up around Mosul to fight 
ISIS, what is the confidence that a Sunni should have that it 
is worth dying for, that they are willing to put their necks 
out on the line if, at the end of the day, the Shia still wind 
up blocking them from, in fact, having the kind of control that 
they have been promised in terms of their regional governments?
    Mr. Wood. I would say this is the single largest factor 
that will prevent this situation from being resolved anytime 
soon. And it is a reflection too of ISIL's awareness of this 
long in advance of their taking territory. They observed what 
happened in the 2000s. They observed the success that the 
United States and others had in finding Sunni allies, and they 
made sure that those Sunni allies are not alive. They 
assassinated huge numbers of possible partners in advance of 
taking the territory in Mosul and other areas of the Sunni-
dominated portions of Iraq. And that means that there is a long 
road ahead of finding, first of all, Sunni Arabs in Iraq who 
could stand in as leaders of a post-ISIS situation. In the 
absence of them, then there would have to be a credible 
government coming out of Baghdad that does not exist.
    Senator Markey. So how much does that complicate taking 
back Mosul if Sunnis do not have the confidence that the Kurds 
or the Shia militia or the government itself, the Iraqi 
government, is actually going to ultimately restore Sunni 
control over that city? Is there not a great deal of additional 
complexity, difficulty that gets added to that whole effort 
that can be cured by having Tikrit and Ramadi under Sunni 
control without interference from the Shia? And what should be 
done by our government and others to say to the Iraqi 
government, get out of Tikrit, get out of Ramadi? You know, let 
the Sunnis control it. Let the good people run their own 
institutions, and then we will have some confidence that the 
people in Mosul will rise up and fight. How important will that 
be?
    Mr. Wood. Vital. And realistically I think it postpones the 
liberation of Mosul certainly by months. I would say probably 
by years.
    The government in Baghdad, of course, is aware of these 
problems but is tied in enough with Iran in particular to be 
unsure that it really wants to solve them. And I think that 
whatever pressure we can provide to suggest more activity on 
that front, then we should. Unfortunately, I do not see any 
quick way to do that. I do not see any pressure that we can 
provide with the diminished influence that we already have in 
Iraq. Unfortunately, I do not see a way through it.
    Senator Markey. Do the other two of you agree with Mr. 
Wood?
    Dr. Levitt. So I think that this is the single largest 
impediment to stability in Iraq. I think the single largest 
impediment to dealing with the ISIL problem in Syria remains 
the Assad regime. It is a separate issue.
    Senator Markey. In Iraq? The Assad issue in Syria----
    Dr. Levitt. In Syria.
    Senator Markey.--is the single biggest obstacle to----
    Dr. Levitt. In Syria. In Syria.
    Senator Markey.--resolving the ISIS issue in Iraq? Is that 
what you said?
    Dr. Levitt. No, it is not what I said.
    Senator Markey. So just focus on Iraq then, please.
    Dr. Levitt. So here we go. In Iraq, the biggest issue is 
the fact that the Sunni minority has no faith in the central 
government, Shia-led central government.
    Senator Markey. Should they have faith?
    Dr. Levitt. The government is going to have to take steps 
to enable them to have faith, which it has not yet.
    And the single biggest problem there is that after 
Ayatollah Sistani called for Shia to volunteer for military 
service, instead what happened is people volunteered for 
militia service, and those militias now appear to be here to 
stay. The Hashd al-Shaabi are meeting with the ministry of 
defense. They are asking for headquarters to be built. To the 
extent that they are formalized, that is going to make the 
Sunnis feel much more fear.
    Senator Markey. So do you agree with Mr. Wood that that 
could push back by, in fact, years our ability to liberate 
Mosul? Do you agree with that conclusion?
    Dr. Levitt. I think it will push back by years the ability 
to have stability in Iraq. It is possible you could still go 
forward and try and liberate Mosul. Liberating Mosul is not the 
issue here. What comes after the liberation of Mosul? If we do 
not do things now to make sure that the Sunnis have buy-in----
    Senator Markey. Well, no. What Mr. Wood is saying is that 
it does complicate taking back Mosul because you will not have 
the full support of the Sunnis in that region who are saying it 
is worth dying for to do it because the post-government 
structure is very dubious in terms of the respect which will be 
given to the indigenous Sunni population. You do agree with 
that.
    Dr. Levitt. I agree that it complicates it.
    Senator Markey. You do not think it actually reduces then 
the likelihood that there will be a pushback in the amount of 
time it will take to liberate Mosul. You think that is an 
independent question, what happens afterwards. You do not think 
it actually affects the time frame it takes to actually 
liberate Mosul?
    Dr. Levitt. I do not think you are hearing what I am 
saying. So I said, yes, I think it does affect the ability to 
take Mosul. I think that ultimately Mosul could be militarily 
taken, but it will not be held long unless you have the buy-in 
from the Sunnis. The wrong way to do it is to have the Shia 
militias do it. In the last statements from the Iraqi 
government, we, the Shia militias intend to be at the 
forefront. That would be disastrous.
    Senator Markey. Okay. That would be a disaster.
    I do not have any more time. Do you agree that would be 
disastrous? You can just answer yes or no, Mr. Olsen. Would 
that be a disaster?
    Mr. Olsen. I do not know if it would be a disaster, but 
obviously, all this complicates the effort.
    Senator Markey. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Udall?
    Senator Udall. Thank you, Chairman Corker.
    And thank you all very much for being here today. It is a 
very important hearing.
    I want to ask about the caliphate a little more 
specifically. I mean, some of the things that have been laid 
out--and disagree with me if I am wrong, but 8 million to 10 
million under the control, somewhere in that range, is the 
numbers that I have seen. Brett McGuirk's recent numbers on 
fighters is 19,000 to 25,000 fighters. But they have lost, as 
you have indicated in your testimony, 40 percent in Iraq and 10 
percent in Syria. But they are still in control.
    What I am really wondering is with the way they raise the 
revenue--you have the taxes. You have the oil. You have the 
kidnapping and the ransom and all of that. Why do people with 
the numbers of fighters and then the large group of people that 
are under control--why do people under the caliphate accept it? 
Why do they pay taxes? Why do we not hear anything about 
anybody rebelling? Are there rebellions going on within these 8 
million to 10 million people? Is there any effort to kind of 
push back after they see brutality and things in their 
communities? And where are we on that front with what exists 
there in terms of how the people feel about the governance that 
has been imposed on them by this caliphate?
    Mr. Wood. There is certainly evidence that people who live 
under ISIL are not unified in their support for it. That is, 
there is evidence of people fleeing it. Of course, many more 
fleeing Bashar al-Assad in Syria, but still evidence of people 
fleeing the caliphate. There is no ability to be a loyal 
opposition within it. So, of course, we are not going to see 
overt activism against them.
    The reason, though, that people are willing to accept the 
caliphate, beyond just what they are forced to accept, is that 
the alternatives that they have had in recent years and that 
they see offered to them for the future are not much better. 
They are looking at the caliphate as a source of stability, a 
source of governance, and I think probably last as a source of 
validation in the religious sense that the caliphate itself 
prefers to headline its governance with. So if they are looking 
as an alternative to government by ISIL to, say, the government 
of Bashar al-Assad or chaos, then they might prefer for purely 
pragmatic reasons to have amputations and crucifixions and so 
forth.
    Senator Udall. Mr. Levitt, please.
    Dr. Levitt. I agree. First of all, many Sunnis do not see 
an alternative.
    Second, many Sunnis see this as not ideal but some level of 
protection from the sectarian fighting from the Shia side or 
from the Assad regime.
    Third, extreme ultra-violence and barbarism goes a long way 
to intimidate a population, and the average person wants to get 
by and have their family get by another day.
    And finally, there is a cost to having an uprising that 
does not get outside help and then is, if not immediately, over 
time suppressed. And they do not see the prospects of outside 
help in that regard. And so there is a tremendous cost to these 
people who are effectively--most of them--hostages under 
Islamic State control.
    And you hear anecdotally cases of people who have left who 
said, look, when they first came in, I figured, okay, they are 
fundamentalist extremists but they are fellow Sunnis and there 
will be law and order. It might not be my law, but as long as I 
live by it, I will not smoke. I will get by. And then they 
leave because they realize it was so much worse than they 
thought it would be. But ultra-violence then will go a long way 
to subdue a population.
    Senator Udall. Mr. Olsen?
    Mr. Olsen. I generally agree with my colleagues here. I 
think we are seeing an erosion in terms of what is happening 
and how individuals who have been subjugated are viewing what 
it is like to live under ISIS. And I think over time, the hope 
is that that becomes--that sense strengthens, and overall that 
as ISIS loses territory, its claim to have established a 
caliphate will be eroded and the group will lose really is 
central claim.
    Senator Udall. You have talked about countries in the 
region in fighting this terrorist threat being participants, 
collaborating with them and working with them and building 
regional coalitions. Which are the countries that you do not 
think are helping our goals and our objectives over there? Who 
is not really stepping up to the plate? Are we really just 
divided along Shia and Sunni lines in terms of the countries 
and looking at them?
    Mr. Olsen. I am trying to think of the countries. You know, 
there is obviously the issue that you just mentioned of the 
Sunni-Shia divide. But countries in the region are helping to 
varying degrees. I think the one country that stands out that 
is helping more now than it has in the past is Turkey, and that 
has made a big difference. They are a vital part of the 
coalition effort.
    Senator Udall. The flip side of my question is who is not.
    Dr. Levitt. I am going to answer it slightly differently. I 
do not think the problem is who is and who is not because I 
really do think it is varying degrees.
    I think the bigger problem is this. You can have a hard 
time, if you look around the region, even though this is 
happening in their backyard, finding a country for whom the 
Islamic State is the number one problem. Maybe it is the Kurds. 
Maybe it is Assad. Maybe it is the Shia or maybe it is the 
Sunnis. The Islamic State is on almost all of their lists, but 
for us, it is pretty much number one and for almost none of 
them is it number one. And that leads them to doing things 
differently, prioritizing things differently, and that is where 
the tension is, not a good list/bad list.
    Senator Udall. Mr. Wood, do you have anything to add on 
that?
    Mr. Wood. I would echo that last point in particular. The 
problem is simply that it is not in the primary interests of 
most of the players in the region to focus their efforts on 
ISIL. And there are major costs that are associated with doing 
that. The only way to actually get their cooperation I think 
would be to make sure that it was in their interest, and that 
is not something that we are capable of doing because the 
calculation is due to regional dynamics that are longstanding.
    Senator Udall. Thank you for your responses.
    The Chairman. We had a similar problem, if you will 
remember, with Pakistan. Our interests and their interests are 
very, very different as it relates to Afghanistan. It is very 
hard to redirect that and keep them away from the duplicity 
that they have been carrying out.
    Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    Mr. Wood, in your testimony you talked about the fact that 
the ISIS message played into the existential, political, and 
religious desires of many inhabitants of the regions in which 
ISIS grows. It is very, very difficult for us to talk about the 
role that religion plays and the perversion of religion plays 
in this debate. It is outside of our lane. We look really bad 
when we do it. In the context of this presidential campaign, 
none of us want to feed into the really awful and 
discriminatory narrative that comes out of some candidates' 
mouths.
    But I want to read you a quote from Farah Pandith, who was 
our country's first U.S. Special Representative to Muslim 
communities, and ask, Mr. Wood, you to react to it, but others 
as well.
    She said that she traveled to 80 countries between 2009 and 
2014. She said each place that I visited, the Wahabbi influence 
was an insidious presence, changing the local sense of 
identity, displacing historic, culturally vibrant forms of 
Islamic practice, and pulling along individuals who were either 
paid to follow their rules or who became their own custodians 
of the Wahabbi world view. Funding all of this was Saudi money, 
which paid for things like textbooks, mosques, TV stations, and 
the training of imams.
    I do not know how we do this because I think we are very 
course in our interventions, but should it not at least be a 
greater portion of our dialogue, the role that Wahabbi 
influence plays in the seeds of extremism, how people are 
primed essentially to hear the messages that are coming from 
ISIS in part because the moderates are increasingly losing the 
fight to some of the more hard-line elements that are purveying 
a certain form of intolerant Islam? I am not asking you for 
solutions here, but as we try to diagnose the problem and we 
try to diagnose why there is this susceptibility to ISIS 
messaging, should we not admit that the tension within the 
religion is a big part of this?
    Mr. Wood. Yes. And I appreciate the caution that you allude 
to that we have to have when we are dealing with this kind of 
issue.
    But certainly if you look at the theological beliefs of 
ISIL fighters, of ISIL ideologues and you compare them to 
mainstream Wahabbi beliefs, they are different in important 
ways. They are similar in many ways as well. The intolerance is 
there. The brutality is there.
    I have done some reporting on public opinion in Saudi 
Arabia in recent months. The level of support for Abu Bakr al 
Baghdadi as caliph among Sunnis is in double-digit percentages 
according to what I have seen. Now, the level of support for, 
if not him as caliph, another caliph who perhaps would differ 
not by much is even higher than that. So I do think that 
understanding the religious background of Wahabbism as my 
colleague, Farah Pandith, has mentioned, yes, is important.
    The other important thing to see too is the ways in which 
that Wahabbi strain has been mobilized to oppose ISIS. The 
state religion of Saudi Arabia is a kind of Wahabbism that is 
quietist that in theory is opposed to violent action to oppose 
Muslim leaders in particular. So I think we need to look at it 
as fine-grained an analytical toolkit as we possibly can, 
seeing the ways in which that kind of intolerant Islam has 
certainly fed into and made fertile the ground for ISIL's 
theology and also seeing the ways it can be mobilized probably 
not by us but by others to oppose it.
    Senator Murphy. Mr. Levitt, do you want to add anything?
    Dr. Levitt. I should put cards on the table. Farah is a 
good friend. We were Ph.D. students together. She is wonderful. 
I am glad you quoted her.
    I would just say there is a difference maybe between how 
this plays out in the region in Muslim majority countries and 
how it does in the West. It is important in both contexts. I 
think Graeme presented some really important ideas on how it is 
facilitating itself in Muslim majority areas.
    When I was in Belgium and I asked authorities about this--
well, let me be clear. I did not raise it at all. Almost every 
Belgian authority I spoke to raised the issue of the 
predominance of Salifi ideology in Belgium with me, and so I 
would ask about it. And what they kept saying is some version 
of here is one person's quote. Salifism is mainstream in 
Belgium. Not all Salifists are terrorists, but all terrorists 
were targeted for recruitment by Salifists in these 
neighborhood extremist networks.
    And what I walked away from--if you look at most of these 
people who are involved in crime and are still drinking and 
using drugs after they have sort of become Salifists or they 
become Islamic State, is that they are being radicalized to the 
idea of the Islamic State far more than any idea of Islam. To 
them, not knowing much about Islam, the Salifists or Salifi 
jihadi really ideas that they are presented with, this is 
Islam.
    So one thing we need to do is not counter the narrative but 
allow mainstream Muslim organizations to present what they are.
    And the other thing is, especially in the West, we should 
not back down or be bashful about standing up for the Western 
ideal of tolerance.
    Senator Murphy. Mr. Olsen, let me ask you one additional 
question. We are talking about how you get Muslim nations to 
engage in the fight against extremism when many of them on the 
Sunni side are much more interested in fighting Iran and vice 
versa.
    We are talking about yet another weapons sale to Saudi 
Arabia to resupply their munitions that they have used inside 
the civil war in Yemen, which is essentially a proxy war 
between the Saudis and the Iranians. Would a pretty easy step 
not be for the United States to say that if you want a resupply 
for the weaponry which you are going to use in a civil war 
between two nation states that you, as a condition, continue to 
be a partner in the fight against extremism? I mean, these GCC 
countries in part have walked away from the bombing campaign 
against ISIL in order to fight in Yemen, and we are about to 
resupply them without, it appears, any explicit conditions that 
they rejoin the fight.
    Mr. Olsen. So I cannot speak directly to the particular 
weapons sale that you mentioned, Senator.
    I would concur with Dr. Levitt's point about the concern 
that in Saudi Arabia and other Gulf countries, ISIS is one 
issue but not a priority issue. And we have certainly seen that 
in the context of the conflict with the Houthis in Yemen.
    At the same time, my own experience has been that the 
Saudis have been very close and reliable partners in the 
counterterrorism fight over the years.
    Senator Murphy. Thank you very much, Mr. Chairman.
    The Chairman. Just to follow up before we close out, from 
your perspective, could you state the relationship between 
Wahabbism and ISIS today?
    Mr. Wood. I would say it is a complicated but still direct 
relationship. If you were to look at the texts that ISIS uses 
for the indoctrination of its recruits, many of them are 
indistinguishable but for very slight changes, slight but 
important changes, from Wahabbi texts that you would see in 
Saudi Arabia. Some of them literally are textbooks that come 
from Saudi Arabia.
    The Chairman. So the text is similar. I'd like an answer 
from all of you, if you would. What about the clerics 
especially outside of Saudi Arabia itself? From your 
perspective, what has been their role?
    Mr. Wood. I think what is most important, both with the 
texts and the individuals and their preaching, is the 
normalization of a kind of view of Islam that is extremely 
intolerant, that is extremely anti-Shia, and that is extremely 
attractive as well to anyone who might be looking for a kind of 
violent outlet for their religious beliefs. That is something 
that has been happening. Salifism or Wahabbism has been around 
for, of course, centuries, but for a matter of decades, there 
has been a kind of normalization of this intolerant view of the 
religion. And I think that comes to fruition in just one of 
several violent ways in the form of ISIS.
    The Chairman. Dr. Levitt?
    Dr. Levitt. I agree. The main connective tissue is making 
intolerance something acceptable and normative. There is 
ideological connective tissue. The Islamic State selectively 
chooses its textual basis, it uses this one and not that one, 
but it is not the case, by any stretch of the imagination, that 
every Wahabbi or even every Salifi jihadi, and certainly not 
every Salifi is an Islamic State supporter. But Islamic State 
supporters or Islamic State members who are operatives will 
subscribe to elements at least of that ideology, and they will 
often take it a step further. So there is that connective 
tissue. One word. It is the intolerance and the hatred of 
others. You subscribe to that. It is a slippery slope and it 
can take you to even more dangerous places.
    The Chairman. Dr. Olsen?
    Mr. Olsen. I just agree with my colleagues again. I do 
think part of, I think, your point, Senator, we have trouble 
talking about this, and part of the concern, which is a real 
concern--I brought this with me from my time in government--is 
that we do not want to paint with a broad brush when we talk 
about the religious foundations for what we see in ISIS 
messaging. One and a half billion Muslims. Obviously, the vast, 
vast majority have nothing to do with this ideology or, in 
particular, with ISIS or terrorism.
    At the same time, at NCTC, we spent time in terms of the 
analysts understanding that message, understanding both how to 
counter it, understanding how to get amplification and voice to 
the messages from both the government, but more importantly 
from those outside the government that can help to defeat that 
message.
    So it is a complicated issue. I think the point about 
intolerance is a very good one. I guess the other thing I would 
say is when you look at, just in terms of the United States, 
homegrown violent extremists, the ones that the FBI is 
tracking, the 250 or so that the FBI Director has talked about 
either going or trying to go to Syria, it is very hard to draw 
any kind of general points about those individuals. This is the 
U.S. radicalized population. Many are converts. Many are born 
Muslim. They come from different walks of life. I think it is 
much more difficult to draw some of those same conclusions 
about the U.S. population as you can when you look perhaps at 
populations inside Syria and Iraq who have joined ISIS. Just a 
word of caution there.
    The Chairman. To get back to where Senator Murphy was 
going, at least partially with his questioning: you have the 
issues of poverty and certainly politics in the region which 
exclude and do not take into account the needs of Sunnis, and 
it creates an environment for ISIS to flourish? Would that be 
fair? When you have clerics who are out there speaking of 
intolerance? Am I missing something here?
    Mr. Olsen. As far as that goes, I think that is accurate.
    The Chairman. So Western forces, not military forces, 
trying to counter that would make it even worse in all 
likelihood. So if we know that, what is the best way for us to 
counter what the Wahhabis are doing around the world in helping 
create this environment that is ISIS-rich? How do we counter 
that?
    Dr. Levitt. In a nutshell, I will just say you do not cede 
them the playing field. If there is a community that needs 
support, the support that should be forthcoming should not only 
be from the extremists. It does not have to be from the United 
States. Who are we partnering with? The vast majority of the 
Muslim world, certainly the Muslim American population, is 
extremely moderate. And who are we partnering with? So across 
this spectrum, you will have religious leaders that are part of 
the problem. You will have many more I believe who are part of 
the solution. But even in the West, we have not yet grasped 
this.
    In Brussels, I was told when I was there that there are 114 
imams, mostly brought in from the Middle East or North Africa. 
Of those 114, only eight speak any of the three local 
languages. So for those third or fourth generation Muslims who 
primarily do not speak Arabic, they cannot communicate with 
these imams. Even if they are not extreme, if they are 
moderate, they cannot be used as part of the solution because 
there is literally a language barrier. So we could work with 
Western governments, governments in the region to try and 
bridge even something as simple as that.
    The Chairman. Anyone else?
    Mr. Wood. I would just add that the interpretation that 
Wahabbism or Salifism or Salifi jihadism puts forth is one that 
has been around for a long time. It is a view of a religion. It 
is far beyond my capacity or that of a government I think to 
resolve a religious schism or contending interpretation that 
has existed and not been resolved through hundreds of years of 
dispute. So all of which is simply to say that we need to 
moderate our expectations for what we can do even with the 
kinds of support that we can and should give to more moderate 
interpretations.
    The Chairman. Senator Cardin?
    Senator Cardin. Mr. Chairman, I just really wanted to 
compliment this panel and this hearing. I found it extremely 
helpful. Obviously, it is extremely frustrating when we are 
going after an entity that does not have one location and one 
particular game plan, where it pops up in different parts of 
the world at different times and has territorial ambitions. I 
just thought that you all really centered in on strategies or 
what needs to be part of an ongoing strategy, which includes 
U.S. leadership at the forefront and the ability to get 
coalition partners to be engaged.
    I thought your point about cutting off safe havens at an 
early stage so that they do not become a bigger problem, as we 
have seen obviously with what has happened in Syria, providing 
a place in which ISIL could thrive--that is an important part 
of the equation now in Libya.
    I also thought that the territorial issues are important 
and they continue to be able to not only retake but to maintain 
the territories away from ISIL, which requires good governance, 
which is perhaps the most challenging of all of our objectives, 
how we can get governance that not only has the confidence and 
respect of all the people of the country, particularly Syria, 
but also Iraq, but that it can function to protect all the 
population, including the Sunni tribal areas. That is not easy, 
but you have made that point very, very clear.
    Cutting off their support, obviously, whether it is the 
financial supports through oil or whether it is the propaganda 
machines that they use, all that is critically important.
    Then lastly something that America is not good at and that 
is patience because this is going to take a long time.
    So I thank you very much. It was very helpful to me.
    The Chairman. Thank you. I agree. I think whenever we set 
these hearings up, you never know whether they are going to be 
helpful or not. In this case, all three of you have been 
outstanding. We thank you for your contributions here in 
helping us to understand more fully what we are dealing with 
and to help others who are observing.
    I hope that you will answer questions that will come in a 
fairly timely fashion. I know each of you is busy. We would 
like to keep the record open through the close of business 
Thursday, but if you could get back on those fairly promptly, 
we would appreciate it.
    We thank you for the role you play in helping all of us 
understand more fully the challenges we have and again for 
being here today and preparing to do so. And we look forward to 
seeing you again. You have been extraordinary, and we 
appreciate it. Thank you very much.
    The meeting is adjourned.
    [Whereupon, at 12:20 p.m., the hearing was adjourned.]

                        [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
